1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-11145
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
GAS PIPE, INCORPORATED; AMY LYNN, INCORPORATED;
GERALD SHULTS; AMY HERRIG,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CR-298-7
Before: HAYNES, HIGGINSON, and OLDHAM, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
Appellants Gerald Shults and Amy Herrig, along
with two corporate entities that they owned and controlled, owned and operated a chain of smoke shops in
Texas and New Mexico. The stores sold synthetic cannabinoids branded as “herbal incense,” “potpourri,” or
“aroma therapy products.” These products, commonly

2a
known as “spice,” were labeled “not for human consumption” even though the appellants intended them
for exactly that. In late 2013, the Drug Enforcement
Administration initiated an undercover investigation
into the appellants’ spice sales, eventually resulting
in their arrest and prosecution. After a three-week
trial, a jury convicted the appellants of one count of
conspiracy to defraud the United States, based on
their efforts to defraud the Food and Drug Administration and to misbrand drugs.
On appeal, the appellants argue that the district
court erred by failing to strike the fraud theory of the
indictment, by incorrectly instructing the jury, and by
denying their motion for acquittal due to insufficient
evidence. Shults and Herrig also challenge the substantive reasonableness of their 36-month sentences.
For the reasons articulated below, we AFFIRM.
I.
Appellants Gas Pipe, Inc., Amy Lynn, Inc., Gerald
Shults, and Amy Herrig owned and operated a chain
of smoke shops in Texas and New Mexico.1 Among the
products on offer at Gas Pipe stores were syntheticcannabinoid products branded as “herbal incense,”
“potpourri,” or “aroma therapy products,” commonly
known as “spice.” Spice, when smoked, produces a
stimulant, depressant, or hallucinogenic effect on the
central nervous system.
For the past decade, the federal government has
scheduled various synthetic cannabinoids as illegal
Shults owned Gas Pipe, Inc. and Amy Lynn, Inc. Herrig,
Shults’s daughter, helped run the companies.

1

3a
controlled substances. Given that there are more than
700 known synthetic cannabinoids, the process of
scheduling is iterative, with more synthetic cannabinoids being scheduled as the Drug Enforcement Administration (“DEA”) and Food and Drug Administration (“FDA”) analyze them and their effects. But regardless of whether a synthetic cannabinoid has been
scheduled, it may not be sold for human consumption
absent FDA approval and proper labeling.
The appellants labeled their products as “not for
human consumption.” But, as the appellants stipulated at trial, they knew that the spice products sold
by Gas Pipe stores were mislabeled because they were
intended for human consumption. Indeed, Gas Pipe’s
spice products were sometimes rated based on their
“strength,” meaning how “high” it would get the user.
Between 2011 and 2014, the appellants sold more
than two million units of spice totaling more than $40
million in revenue.
In late 2013, the DEA started an undercover investigation into the appellants’ spice sales. DEA
agents posed as customers and made 34 “controlled
buys” to determine whether the appellants were selling spice for human consumption. The agents had the
spice analyzed by a lab, and results revealed that the
spice contained various synthetic cannabinoids. On
June 4, 2014, DEA agents executed search warrants
at all of the appellants’ stores and warehouses and
seized spice containing synthetic cannabinoids, some
of which had already been scheduled as controlled
substances.

4a
A grand jury returned a Third Superseding Indictment in September 2016. The indictment charged the
appellants and six of their employees with 11 counts.2
Count One charged the appellants with violating 18
U.S.C. § 371, which, inter alia, prohibits conspiracies
to “defraud the United States.” Specifically, this
Count alleged that the appellants (1) conspired to defraud the FDA and (2) conspired to commit felony misbranding under 21 U.S.C. §§ 331, 333(a)(2), and 352
“by introducing or delivering an adulterated or misbranded drug into interstate commerce with the intent to defraud or mislead.”
After a three-week trial, the jury found the appellants guilty on Count One and acquitted them on the
remaining counts.3 Subsequently, after a two-day
hearing, the district court sentenced Shults and Herrig to 36 months’ imprisonment, two years’ supervised
release, and a $100 special assessment. The court sentenced each of the corporate entities, Gas Pipe and
Amy Lynn, to a $25,000 fine.

Three of the employees pleaded guilty, one of whom testified
for the Government at trial. The district court granted the fourth
employee’s Rule 29 motion. The jury acquitted the two remaining employees.

2

The ten other counts charged in the indictment were: conspiracy to commit mail and wire fraud (Count Two); assorted controlled substance–related offenses (Counts Three through Ten);
and conspiracy to commit money laundering (Count Eleven).
Prior to trial, the district court granted the Government’s motion
to dismiss Count Two.

3

5a
II.
The appellants first make two arguments as to
why Count One of the indictment was legally insufficient. Because they preserved their challenges, we review them de novo. United States v. Anderton, 901
F.3d 278, 282 (5th Cir. 2018).
First, the appellants argue that the word “defraud,” as used in 18 U.S.C. § 371, should be cabined
to its common law meaning of cheating the Government out of property or money. It cannot, they say,
reach agreements for the purpose of impeding a government agency’s functions. As the appellants
acknowledge, however, a long line of Supreme Court
and circuit precedent holds otherwise, and we reject
this argument as foreclosed.4
See Haas v. Henkel, 216 U.S. 462, 479 (1910) (“[I]t is not essential that such a conspiracy shall contemplate a financial loss or
that one shall result. The statute is broad enough in its terms to
include any conspiracy for the purpose of impairing, obstructing,
or defeating the lawful function of any department of government.”); Hammerschmidt v. United States, 265 U.S. 182, 188
(1924) (“It is not necessary that the government shall be subjected to property or pecuniary loss by the fraud, but only that
its legitimate official action and purpose shall be defeated by
misrepresentation, chicane, or the overreaching of those charged
with carrying out the governmental intention.”); Dennis v.
United States, 384 U.S. 855, 861 (1966) (affirming Hammerschmidt); United States v. Haga, 821 F.2d 1036, 1040 (5th
Cir. 1987) (applying Hammerschmidt); United States v. Hopkins,
916 F.2d 207, 213 (5th Cir. 1990) (same); United States v. Martin, 332 F.3d 827, 834 (5th Cir. 2003) (same); see also United
States v. Coplan, 703 F.3d 46, 61 (2d Cir. 2012) (applying Hammerschmidt and its progeny despite noting “infirmities in the
history and deployment of [§ 371]”).
4

6a
Second, the appellants argue that this court
should impose a “limiting principle” on § 371’s defraud clause in light of the Supreme Court’s recent
construction of purportedly similar language in another federal criminal statute. Specifically, they ask
this Court to extend a rule announced in Marinello v.
United States, 138 S. Ct. 1101 (2018)—that to convict
under 26 U.S.C. § 7212(a)’s omnibus clause, the Government must show a “nexus” between the defendant’s conduct and a pending or reasonably foreseeable
tax-related administrative proceeding, such as an investigation or audit, id. at 1109–10—and apply it to §
371. A recent case, United States v. Herman, No. 1950830, --- F.3d ---- (5th Cir. May 6, 2021), controls. In
Herman, we rejected an identical argument and declined to extend the Marinello nexus requirement to §
371’s defraud clause, and we reject the appellants’ arguments as foreclosed here.
These same two legal arguments also form the basis of the appellants’ challenge to the district court’s
conspiracy-to-defraud jury instructions, and thus that
challenge also fails. The appellants preserved their
objections to the conspiracy-to-defraud instructions.
We ordinarily review jury instructions for abuse of
discretion. But when, as here, the appellants argue
that the instruction misstates an element of the offense, that is an issue of statutory construction, which
we review de novo subject to harmless error review.
United States v. Garcia-Gonzalez, 714 F.3d 306, 312
(5th Cir. 2013); United States v. Guevara, 408 F.3d
252, 257 (5th Cir. 2005).
Specifically, the appellants argue that the district
court committed reversible error in its conspiracy-to-

7a
defraud jury instructions by (1) failing to limit the defraud theory to agreements to cheat the Government
out of money or property and (2) refusing to provide a
Marinello instruction that the Government must
prove a nexus between the conspiracy and a particular administrative proceeding. Because we rejected
the appellants’ two legal arguments above about the
scope of § 371’s defraud clause and the effect of Marinello, we accordingly hold that the district court’s conspiracy-to-defraud jury instructions were correct
statements of law.
III.
The appellants next challenge the district court’s
jury instructions about felony misbranding in two respects. First, they argue that 21 U.S.C. § 333(a)(2)’s
requirement that a violation be committed with “intent to defraud or mislead” incorporates a separate
materiality element that was not included in the jury
charge. Second, the appellants contest the district
court’s refusal to instruct the jury that an “intent to
defraud or mislead” under § 333(a)(2) requires “an intent to deceive or cheat connected with the misbranding.”
A.
The appellants’ first claim of instructional error—
that the district court failed to include materiality as
an element of felony misbranding—asserts misstatement of an element and hinges on statutory interpretation. The court’s review is therefore de novo, subject
to harmless error analysis. See Garcia-Gonzalez, 714
F.3d at 312; Guevara, 408 F.3d at 257.

8a
Section 333 of the Food, Drug, and Cosmetic Act
(“FDCA”) imposes felony liability for misbranding
drugs with the “intent to defraud or mislead.” 21
U.S.C. § 333(a)(2). Invoking Neder v. United States,
527 U.S. 1 (1999), and United States v. Watkins, 278
F.3d 961 (9th Cir. 2002), the appellants argue that
this FDCA provision requires proof of materiality. In
general, a statement is material if it has “a natural
tendency to influence, or [is] capable of influencing,
the decision of the decisionmaking body to which it
was addressed.” Neder, 571 U.S. at 16 (alteration in
original) (quoting United States v. Gaudin, 515 U.S.
506, 509 (1995)); see also United States v. Arlen, 947
F.2d 139, 143 (5th Cir. 1991) (finding felony misbranding when the defendant, inter alia, acted with
the “specific intent to defraud or mislead an identifiable government agency” (emphasis added)). Thus, if
applicable here, proof of materiality would require
demonstrating that the appellants’ misbranding had
a tendency to influence, or was capable of influencing,
the FDA’s decisionmaking.
In Neder, the Supreme Court considered whether
materiality is an element of a “scheme or artifice to
defraud” under the federal mail fraud (18 U.S.C. §
1341), wire fraud (id. § 1343), and bank fraud (id. §
1344) statutes. 571 U.S. at 20. Invoking the “well-established rule of construction that ‘[w]here Congress
uses terms that have accumulated settled meaning
under . . . the common law, a court must infer, unless
the statute otherwise dictates, that Congress means
to incorporate the established meaning of these
terms,’” the Court concluded that “the common law
could not have conceived of ‘fraud’ without proof of

9a
materiality.” Id. at 21–22 (alterations in original)
(quoting Nationwide Mut. Ins. Co. v. Darden, 503 U.S.
318, 322 (1992)). Accordingly, the Court held that it
“must presume that Congress intended to incorporate
materiality ‘unless the statute otherwise dictates.’”
Id. at 23 (quoting Darden, 503 U.S. at 322). In Watkins, the Ninth Circuit followed the logic of Neder and
extended the materiality requirement to the “intent
to defraud” and the “intent to . . . mislead” FDCA provisions at issue here. 278 F.3d at 966, 969.
Assuming without deciding that materiality is an
element of § 333(a)(2)’s felony misbranding offense,5
The text and structure of the FDCA cast doubt as to whether
Neder extends to § 333(a)(2)’s felony misbranding offense. Although § 333(a)(2) itself does not specifically reference materiality, it is interpretively significant that other sections of the
FCDA do. E.g., 21 U.S.C. §§ 331(q)(2), 331(y)(1), 334(a)(1)(B),
335a(g)(1)(A)(ii), 335b(a)(1), 335c(a)(1), 343(a)(2) (expressly prohibiting misleading representations or omissions that are “material”). This suggests choice, and a choice to not employ a term
in one provision but to use it in neighboring provisions suggests
a meaning through the absence of that term. See Pereira v. Sessions, 138 S. Ct. 2105, 2114 (2018) (looking to a “neighboring
statutory provision” for “contextual support”); Russello v. United
States, 464 U.S. 16, 23 (1983) (“[W]here Congress includes particular language in one section of a statute but omits it in another section of the same Act, it is generally presumed that Congress acts intentionally and purposely in the disparate inclusion
or exclusion. . . . We would not presume to ascribe this difference
to a simple mistake in draftsmanship.” (first alteration in original) (internal quotation marks and citation omitted)). Another
provision of the FDCA, however, cuts in the opposite direction.
The statute’s definitions section indicates that materiality must
be considered in evaluating misbranding offenses. See 21 U.S.C.
§ 321(n) (“If an article is alleged to be misbranded because the
labeling or advertising is misleading, then in determining
5

10a
under the facts of this case, any error was harmless.
See Neder, 527 U.S. at 8–15.
To the extent that the district court erred in omitting materiality as an element of § 333(a)(2), the error
was harmless if, “after a ‘thorough examination of the
record,’ [we are] able to ‘conclude beyond a reasonable
doubt that the jury verdict would have been the same
absent the error.’” United States v. Cessa, 785 F.3d
165, 186 (5th Cir. 2015) (quoting United States v. Skilling, 638 F.3d 480, 482 (5th Cir. 2011)); see also Neder,
527 U.S. at 19. Here, we must determine whether the
jury would have found that the appellants’ misbranding was material—that is, had “a natural tendency to
influence, or [was] capable of influencing” the FDA’s
decisionmaking. Neder, 527 U.S. at 16; accord Arlen,
947 F.2d at 143.
Our review of the record shows, beyond a reasonable doubt, that the jury would have concluded that the
appellants’ misbranding tended to influence, or was
capable of influencing, the FDA’s decisionmaking
based on evidence presented at trial.
First, Lawrence Shahwan, who supplied spice to
the appellants, testified that the reason he labeled his
product “Not for Human Consumption” was because
whether the labeling or advertising is misleading there shall be
taken into account . . . the extent to which the labeling or advertising fails to reveal facts material in the light of such representations or material with respect to consequences which may result from the use of the article . . . .” (emphasis added)). But we
pretermit this debate because, under the facts of this case, any
error the district court made in omitting materiality as an element of § 333(a)(2) was harmless.

11a
that was “the only way that we could sell it to the public. If it was stated for human consumption, it would
be subject to FDA regulations. And obviously we
wouldn’t be able to sell these products for human consumption.” Second, Joshua Campbell, a former manager of a Gas Pipe store, testified that the appellants
sold spice packaged as if it were “herbal incense” or
“potpourri” even though “[i]t really wasn’t.” He testified that this terminology was “important” to Shults
and Herrig “[b]ecause of the legality of what spice
was.” Directly connecting this practice to the appellants’ intent, Campbell testified that Shults and Herrig “didn’t want to sell [spice] as a consumable because
it would have to go through the FDA . . . .” Campbell
was not simply guessing as to the appellants’ intent;
he testified that they were “very strict on terminology” and that he participated in weekly conference
calls with Shults and Herrig in which spice sales were
their “primary concern.”
Although the Government highlights other evidence—including emails and contemporaneous notes
that show the appellants were monitoring FDA actions regarding spice and additional witness testimony about the appellants’ knowledge of the regulatory landscape—Shahwan’s and Campbell’s testimony are sufficient to show that the appellants sold
spice labeled “Not for Human Consumption” to evade
the FDA’s regulatory scrutiny and that, if the appellants’ products had been correctly labeled as intended
for human consumption, they would have been subject to FDA regulation. The mislabeling therefore had
“a natural tendency to influence, or [was] capable of

12a
influencing” the FDA’s decisionmaking and thus was
“material.” Neder, 527 U.S. at 16.
B.
The appellants’ second claim is that the district
court should have specifically defined § 333(a)(2)’s use
of “intent to defraud or mislead” as “an intent to deceive or cheat connected with the misbranding.”
This argument presents a “framing” issue reviewed for abuse of discretion. Eastman Chem. Co. v.
Plastipure, Inc., 775 F.3d 230, 240 (5th Cir. 2014); see
also United States v. Jones, 664 F.3d 966, 978 (5th
Cir. 2011). Under that standard, “[w]e will reverse the
district court’s decision only if the requested instruction (1) was a substantially correct statement of the
law, (2) was not substantially covered in the charge as
a whole, and (3) concerned an important point in the
trial such that the failure to instruct the jury on the
issue seriously impaired the defendant’s ability to
present a given defense.” United States v. Wright, 634
F.3d 770, 775 (5th Cir. 2011) (internal quotation
marks omitted) (quoting Cooper Indus., Inc. v. Tarmac Roofing Sys., Inc., 276 F.3d 704, 714 (5th Cir.
2002)). We “afford the trial court great latitude in the
framing and structure of jury instructions.” Eastman,
775 F.3d at 240.
Count One of the indictment charged the appellants with conspiring to defraud the United States by
(1) conspiring to defraud the FDA and (2) conspiring
to introduce misbranded drugs into interstate commerce with the intent to defraud or mislead. When instructing the jury about the conspiracy to defraud the
FDA, the district court separately defined “defraud”:

13a
“The word ‘defraud’ here is not limited to its ordinary
meaning of cheating the government out of money or
property; it also includes impairing, obstructing, defeating, or interfering with the lawful function of the
government or one if its agencies by dishonest
means.” When instructing the jury about conspiracy
to commit felony misbranding, the district court did
not separately define “defraud,” but when instructing
the jury about the lesser included offense, conspiracy
to commit simple misbranding, the district court referenced its earlier definition of the word “defraud”:
“You should find the defendant you are considering
guilty of conspiracy to commit simple misbranding if
. . . the defendant made an agreement as a result of
which the misbranding offense . . . occurred, but that
the government has not proved that the defendant
you are considering intended to defraud or mislead,
as I have defined that phrase.” The appellants argue
that by instructing the jury on felony misbranding
with the bare statutory language “intent to defraud or
mislead” and then cross-referencing the “defraud” definition, the district court’s instructions confused the
jury on the meaning of “defraud or mislead” as used
in the felony misbranding offense.
This court rejected a similar argument in United
States v. Haas, 171 F.3d 259 (5th Cir. 1999). Like the
appellants, the defendant in that case was convicted
of conspiracy to defraud the FDA and conspiracy to
commit felony misbranding. Id. at 263–64. Also like
the appellants, the defendant argued that “the district court erred when it failed to define the phrase
‘intent to defraud’” under § 333(a)(2) as intent “to de-

14a
ceive or to cheat.” Id. at 267. This court affirmed, holding that “this additional language, beyond the instruction that the court gave, would add little to the
jurors’ understanding of the phrase ‘intent to defraud.’” Id.
The appellants try to distinguish Haas by pointing
out that the jury instructions in that case did at least
specify that fraudulent misbranding requires “deceit,
craft or trickery or at least . . . means that are dishonest.” Here, however, the district court’s instructions
on the meaning of “defraud” included a similar gloss,
referencing “cheating” and “dishonest means.” The
appellants do not explain why these words should be
deemed inadequate. Moreover, courts have interpreted § 333(a)(2)’s use of “intent to defraud or mislead” along similar lines as § 371’s use of “defraud.”
Compare Tanner v. United States, 483 U.S. 107, 128
(1987) (“[T]he fraud covered by [§ 371] reaches any
conspiracy for the purpose of impairing, obstructing
or defeating the lawful function of any department of
Government.” (internal quotation marks and citation
omitted)), with Arlen, 947 F.2d at 143 (holding that
“intent to defraud or mislead” under § 333(a)(2)
reaches misbranding offenses “committed with the
specific intent to defraud or mislead an identifiable
government agency”). The district court did not err in
declining to specifically equate “intent to defraud or
mislead” with “intent to deceive or cheat.”
The appellants also argue that the district court
erred by not instructing the jury that an “intent to deceive or cheat” must be “connected” to misbranding.
We disagree. Although the district court did not adopt

15a
the exact wording proposed by the appellants, it instructed the jury that a conviction for felony misbranding required a finding “[t]hat a person mislabeled the drug and the defendant, by such mislabeling, intended to defraud or mislead.”
For these reasons, the district court’s jury instruction “substantially covered” the appellants’ proposed
instruction and did not misstate the law. Wright, 634
F.3d at 775.
IV.
The appellants next challenge the sufficiency of
the evidence for conviction under Count One.
The parties agree that the appellants preserved
their sufficiency challenges to their convictions by
timely moving for acquittal under Rule 29 of the Federal Rules of Criminal Procedure. See United States v.
Bolton, 908 F.3d 75, 89 (5th Cir. 2018); Fed. R. Crim.
P. 29(a), (c). This court “review[s] preserved challenges to the sufficiency of the evidence de novo, but
[the court is] highly deferential to the verdict.” United
States v. Scott, 892 F.3d 791, 796 (5th Cir. 2018) (internal quotation marks and citation omitted). This
means that the court “view[s] all evidence, whether
circumstantial or direct, in the light most favorable to
the government, with all reasonable inferences and
credibility choices to be made in support of the jury’s
verdict.” Bolton, 908 F.3d at 89 (internal quotation
marks and citation omitted). Evidence is sufficient to
support a conviction so long as “any rational trier of
fact could have found the essential elements of the
crime beyond a reasonable doubt.” Scott, 892 F.3d at

16a
797 (emphasis, internal quotation marks, and citation
omitted).
A.
The appellants raise a combination of legal and
factual challenges to the sufficiency of the evidence
supporting their convictions for conspiracy to defraud
the FDA. They assert that (1) Marinello upsets their
conviction because there was insufficient evidence
showing that the appellants agreed to interfere with
or obstruct “a particular administrative proceeding”;
(2) the FDA could not have been defrauded because
there was no evidence of an ongoing FDA investigation into their spice sales before the June 2014 raid;
and (3) the evidence was insufficient for the jury to
rationally conclude that they intended to defraud the
FDA.
First, the appellants reprise their argument that
Marinello, 138 S. Ct. 1101, required the Government
to put on evidence that they agreed to interfere with
or obstruct a particular FDA proceeding that was
then pending or reasonably foreseeable. For the reasons already discussed, supra section II, the Government was not required to make this showing.
Second, the appellants claim that the FDA could
not have been defrauded within the meaning of § 371
because there was no evidence of the FDA’s involvement prior to the June 2014 raids and therefore they
could not have intentionally or with knowledge defeated the FDA’s mission. This argument misstates
the law: the Government is not required to establish
the FDA’s participation in the underlying criminal investigation or the appellants’ knowledge of any such

17a
participation. “The defraud clause of § 371 reaches . .
. any conspiracy designed to impair, obstruct, or defeat the lawful function of any department of the government”—in this case, a conspiracy to avoid contact
with the FDA to avoid regulation. United States v.
Clark, 139 F.3d 485, 488–89 (5th Cir. 1998); see also
United States v. Dessart, 823 F.3d 395, 403 (7th Cir.
2016) (“§ 333(a)(2) applies if the defendant intended
to deceive either consumers or the FDA or both.”). At
bottom, this argument repackages the appellants’ incorrect Marinello rationale.
Third, the appellants assert that the Government
did not present evidence from which the jury could
conclude that they intended to defraud the FDA. We
disagree. As discussed, supra section III.A, the appellants’ supplier, Lawrence Shahwan, and their employee, Joshua Campbell, both testified that the appellants labeled these products “not for human consumption” to avoid scrutiny or regulation by the FDA.
Shahwan also testified that it was obvious that the
products could not have been sold if intended for human consumption. Viewing the evidence in the light
most favorable to the Government and all reasonable
inferences in support of the jury’s verdict, Bolton, 908
F.3d at 89, we conclude that a rational jury could find
that the evidence was sufficient to convict the appellants of conspiracy to defraud the FDA. See Haas, 171
F.3d at 266 (“We need not list all of the evidence a jury
could have considered in concluding that [the appellants] intended to defraud the FDA—we will only consider a few examples.”); Dessart, 823 F.3d at 403.

18a
B.
The appellants also argue that the evidence was
insufficient to prove the felony misbranding offense
because the Government did not establish beyond a
reasonable doubt that the public was misled by the
labeling or that the appellants intended to defraud or
mislead the Government. We need not reach this
question. The district court gave a unanimity instruction, and the jury convicted the appellants on Count
One after separately concluding that the appellants
conspired to defraud the FDA and also that they conspired to commit felony misbranding. The appellants’
convictions on Count One can be sustained by our conclusion that the evidence was sufficient to convict the
appellants of conspiring to defraud the FDA. See
United States v. Mauskar, 557 F.3d 219, 229 (5th Cir.
2009) (“[A] general guilty verdict on a multiple-object
conspiracy may stand even if the evidence is insufficient to sustain a conviction on one of the charged objects.” (alteration in original) (quoting United States
v. Mann, 493 F.3d 484, 492 (5th Cir.2007))).
V.
Finally, Shults and Herrig appeal the substantive
reasonableness of their 36-month sentences, which
we review for abuse of discretion. United States v.
Sifuentes, 945 F.3d 865, 868 (5th Cir. 2019).
“This court recognizes three types of sentences: (1)
a sentence within a properly calculated Guidelines
range; (2) a sentence that includes an upward or
downward departure as allowed by the Guidelines;
and (3) a non-Guideline sentence or a variance that is
outside of the relevant Guidelines range.” United

19a
States v. Brantley, 537 F.3d 347, 349 (5th Cir. 2008)
(internal quotation marks omitted) (quoting United
States v. Smith, 440 F.3d 704, 706–08 (5th Cir. 2006)).
If “the district court imposes a sentence that is outside
the guidelines framework, such a sentence is considered a variance.” United States v. Jacobs, 635 F.3d
778, 782 (5th Cir. 2011) (internal quotation marks
omitted). The district court must explain its reasons
for imposing any variance under the § 3553(a) factors.
Id. “A non-Guideline sentence unreasonably fails to
reflect the statutory sentencing factors where it (1)
does not account for a factor that should have received
significant weight, (2) gives significant weight to an
irrelevant or improper factor, or (3) represents a clear
error of judgment in balancing the sentencing factors.” Smith, 440 F.3d at 708.
Contrary to Shults and Herrig’s assertion, the district court imposed their sentences as upward variances after carefully considering the § 3553(a) factors.
The court highlighted that Shults and Herrig engaged
in “very serious” conduct because they sold a product
that “is dangerous and addictive”; discussed Shults’s
and Herrig’s histories and characteristics; and confirmed that the sentences imposed were necessary “to
promote respect for the law, while justly punishing”
Shults and Herrig and “hopefully deterring others
from engaging in similar conduct.” The court recognized that the 36-month sentences exceeded the
Guidelines range for Shults and Herrig but confirmed
its view that the § 3553(a) factors required those sentences.
In their opening brief, Shults and Herrig incorrectly argue that the variance rested “on the same

20a
ground” as the departure, and they do not argue that
the district court misapplied the § 3553(a) factors.
Only in their reply brief do they assert an error as to
the § 3553(a) factors, but arguments raised for the
first time in a reply brief are waived. United States v.
Jackson, 426 F.3d 301, 304 n.2 (5th Cir. 2005). Shults
and Herrig have not shown that the district court
abused its discretion in imposing the upward variances.
Because the district court justified Shults’s and
Herrig’s sentences as both variances and departures,
we need not consider the propriety of their sentences
as an upward departure. Instead, we affirm the sentences on the district court’s basis as an upward variance justified by the § 3553(a) factors. See United
States v. Hebert, 813 F.3d 551, 561 (5th Cir. 2015) (declining to reach an “issue of first impression” whether
a particular sentencing departure was impermissible
“because [defendant’s] sentence may be affirmed on
the district court’s alternate basis for the sentence—
that the sentence is appropriate as an upward variance”); Brantley, 537 F.3d at 349 (“The district court
stated that based on the § 3553(a) factors, the sentence was outside of the Guidelines range both as an
upward departure and as a variance. For present purposes, however, the specific characterization is irrelevant because . . . the sentence imposed was reasonable
under the totality of the relevant statutory factors.”
(internal quotation marks and citation omitted)).

21a
VI.
We AFFIRM the district court on all issues, holding that the allegations in Count One of the indictment charging the appellants with conspiracy to defraud the FDA in violation of 18 U.S.C. § 371 were
legally sufficient, the district court correctly instructed the jury on the charge of conspiracy to defraud the Government, the district court correctly instructed the jury on the charge of conspiracy to commit felony misbranding, the evidence was sufficient
for the jury to convict the appellants on Count One,
and Shults’s and Herrig’s 36-month prison sentences
were substantively reasonable.

22a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
UNITED STATES OF
AMERICA,

No. 3:14-CR-00298-M

v.
GAS PIPE, INC. (7),
AMY LYNN, INC. (8),
GERALD SHULTS (9),
AMY HERRIG (10),
BRIDGET PAYROT (18),
TOM SCOTT (30)
ORDER
Before the Court are the Motion to Strike the Conspiracy to Defraud Allegations in Count One filed by
Gas Pipe, Inc., Amy Lynn, Inc., Gerald Shults, and Amy
Herrig [ECF No. 889], the Motion to Adopt Defendants’
Motion to Strike filed by Tom Scott [ECF No. 890], and
the Motion to Adopt Defendants’ Motion to Strike filed
by Bridget Payrot [ECF No. 897]. For the following reasons, the Motion to Strike is DENIED and the Motions
to Adopt are DENIED AS MOOT.

I. Background
In this case, Defendants are charged with participating in a business which allegedly marketed and
sold controlled substances and controlled substance
analogues. Count One of the Third Superseding Indictment charges the Defendants listed above and

23a
others with violating 18 U.S.C. § 371. [ECF No. 672
at 5]. Specifically, this Count alleges that the Defendants (1) conspired “to defraud the United States Food
and Drug Administration,” and (2) conspired to “commit certain offenses against the United States . . . by
introducing or delivering an adulterated or misbranded drug into interstate commerce . . . .” [Id.].
On August 27, 2018, Defendants filed the Motion
to Strike. [ECF No. 889 at 1]. In the Motion, Defendants argue that Count One “is duplicitous, because it
charges both a conspiracy to defraud the United
States and a conspiracy to commit offenses against
the United States.” [Id.]. Defendants further argue
that the allegation of conspiracy to defraud the
United States fails to charge an offense and, thus,
must be stricken. [Id.]. Defendants Scott and Payrot
each filed Motions seeking to adopt the Motion to
Strike. [ECF No. 890 at 1; ECF No. 897 at 1].
II. Legal Standard
“A duplicitous indictment is one that alleges ‘two
or more distinct and separate offenses’ in a single
count.” United States v. Caldwell, 302 F.3d 399, 408
(5th Cir. 2002) (quoting United States v. Morrow, 177
F.3d 272, 296 (5th Cir. 1999)). “[I]n determining
whether an indictment is duplicitous, the inquiry is
‘whether [the indictment] can be read to charge only
one violation in each count.’” Id. (quoting United
States v. Sharpe, 193 F.3d 852, 866 (5th Cir. 1999)).
“Where a penal statute . . . prescribes several alternative ways in which the statute may be violated and
each is subject to the same punishment, . . . the indictment may charge any or all of the acts conjunctively,

24a
in a single count, as constituting the same offense,
and the government may satisfy its burden by proving
that the defendant, by committing any one of the acts
alleged, violated the statute.” United States v. Wiley,
979 F.2d 365, 368 (5th Cir. 1992) (citing United States
v. Burton, 871 F.2d 1566, 1573 (11th Cir. 1989); Fields
v. United States, 408 F.2d 885, 887 (5th Cir. 1969)).
A defendant may raise, by pretrial motion, the defense of a defect in an indictment, including failure to
state an offense. FED. R. CRIM. P. 12(b)(3)(B). “To pass
constitutional muster, an indictment must ‘allege[]
every element of the crime charged and in such a way
as to enable the accused to prepare his defense and to
allow the accused to invoke the double jeopardy clause
in any subsequent proceeding.’” United States v.
Rainey, 757 F.3d 234, 247 (5th Cir. 2014) (quoting
United States v. Pratt, 728 F.3d 463, 477 (5th Cir.
2013)). “The validity of an indictment is governed by
practical, not technical considerations.” Id. (quoting
United States v. Ramos, 537 F.3d 439, 459 (5th Cir.
2008)). “Generally, an indictment that closely tracks
the language under which it is brought is sufficient to
give a defendant notice of the crimes with which he is
charged.” United States v. Franco, 632 F.3d 880, 884
(5th Cir. 2011).
III. Analysis
a.

Duplicity

Count One charges Defendants with violating 18
U.S.C. § 371. Section 371 provides, in relevant part,
that:

25a
If two or more persons conspire either to commit any offense against the United States, or to
defraud the United States, or any agency
thereof in any manner or for any purpose, and
one or more of such persons do any act to effect
the object of the conspiracy, each shall be fined
under this title or imprisoned not more than
five years, or both.
18 U.S.C. § 371. The language of the Third Superseding Indictment charges Defendants with:
Knowingly consipir[ing], confederat[ing], and
agree[ing] with each other, and others known
and unknown to the Grand Jury, to defraud the
United States Food and Drug Administration
(“FDA”), an agency of the United States, for the
purpose of impeding, impairing, obstructing,
and defeating their lawful governmental functions of regulating drug labeling and approving
new drugs, before introduction into interstate
commerce; and to commit certain offenses
against the United States, that is to violate 21
U.S.C. §§ 331, 333(a)(2), and 352 by introducing
or delivering adulterated or misbranded
drug[s] into interstate commerce with the intent to defraud or mislead.
[ECF No. 672 at 5].
The inquiry to be performed by the Court in reviewing this language for duplicity is to determine
“whether [the indictment] can be read to charge only
one [offense]” in Count One. Caldwell, 302 F.3d at
408. This requires the Court to determine whether
the separate clauses in Section 371 regarding

26a
“comit[ting] any offense against the United States”
and “defraud[ing] the United States” describe a single
offense, chargeable in one count, or two distinct offenses which must be charged separately. This analysis is complicated by controlling precedent which appears to conflict.
In United States v. Haga, upon which Defendants
rely, the Fifth Circuit noted that “[c]ases construing
[S]ection 371 have made it plain that the ‘commit any
offense’ clause and the ‘defraud the United States’
clause describe different criminal offenses . . . .” 821
F.2d 1036, 1039 (5th Cir. 1987). Thus, the Court held
that a defendant was wrongly convicted of conspiring
to defraud the United States when the language of the
indictment alleged only that the defendant had conspired to commit offenses against the United States.
Id. at 1038, 1042, 1046. Because the clauses created
separate offenses, the Fifth Circuit stated that “Count
I must have charged a conspiracy either to ‘commit
any offense’ or to ‘defraud the United States[;’] it cannot have charged both.” Id. at 1043.
Five years later, in United States v. Wiley, it appears that the Fifth Circuit acted contrary to this
mandate. 979 F.2d 365, 367 (5th Cir. 1992). In Wiley,
the court was faced with a duplicity challenge to an
indictment charging violations of Section 371. Id. The
language of the Wiley indictment largely mirrored the
language at issue here and charged the defendants
with both conspiring to defraud the United States and
commit offenses against the United States in one

27a
count.1 Id. Reviewing this language, the Fifth Circuit
specifically stated that the count was not duplicitous
and that this “d[id] not amount to a charge of multiple
crimes in one count.” Id. at 367–68. Thus, the Haga
and Wiley decisions appear to offer conflicting directives regarding Section 371.
The majority of authorities outside this circuit is
in accord with Wiley. The Third, Ninth, and Eleventh
Circuits have specifically held that that Section 371
does not create two separate offenses. United States
v. Rigas, 605 F.3d 194, 208 (3d Cir. 2010) (“We believe
that . . . § 371 creates one offense, not two distinct offenses.”);2 United States v. Smith, 891 F.2d 703, 705
(9th Cir. 1989) (holding that the “two clauses [of §
371] should be interpreted to establish alternate
means of commission, not separate offenses”); United
States v. Harmas, 974 F.2d 1262, 1266 (11th Cir.
1992) (“The statute is written in the disjunctive and
should be interpreted as establishing two alternatives
means of committing a violation.”). Further, the Second and District of Columbia Circuits have rejected
duplicity challenges to indictment language similar to

The relevant language from the Wiley indictment stated that
the defendants “did willfully and knowingly combine, conspire,
confederate and agree together and with each other and with
other persons to defraud the United States by impeding, impairing, obstructing and defeating the lawful governmental functions of the Internal Revenue Service of the Treasury Department of the United States, and to commit an offense against the
United States.” Wiley, 979 F.2d at 367.

1

The Rigas court noted the apparent conflict in Fifth Circuit
precedent in its opinion. Rigas, 605 F.3d at 211 n. 14.

2

28a
that used here because such language charges a single offense. United States v. Williams, 705 F.2d 603,
623–24 (2d Cir. 1983) (finding that an indictment
which charged both a conspiracy to defraud and a conspiracy to commit various substantive offenses was
not duplicitous); May v. United States, 175 F.2d 994,
1002 (D.C. Cir. 1949) (“[T]his indictment clearly
charges one conspiracy. That the single conspiracy
was to commit two offenses makes no difference.”).
Based on the Court’s own reading of the language
of Section 371 and a review of the authority detailed
above, the Court finds that Section 371 sets out only
one offense. Thus, the language of Section 371 “prescribes several alternative ways in which the statute
may be violated.” Wiley, 979 F.2d at 368. Count One
describes these alternative methods of violation and
does not impermissibly charge more than one offense.
Defendants’ request to strike portions of Count One
for duplicity is DENIED.
b.

Failure to State an Offense

Defendants, apparently under the belief that Section 371 sets out two separate offenses, argue that
“the conspiracy to defraud allegations fail to charge
an offense” and, therefore, that “the [G]overnment
should be required to proceed with the ‘conspiracy to
commit offenses’ charge.” [ECF No. 889 at 1]. As described above, however, Section 371 creates only one
potential offense which can be committed by conspiring either to defraud the United States or to commit
an offense against it, or both. Defendants argue that
the Third Superseding Indictment fails to state a
“conspiracy to defraud offense” but appear to concede

29a
that the Indictment sufficiently alleges that Defendants conspired to commit an offense against the
United States. [See id. (“The [G]overnment should be
required to proceed with the ‘conspiracy to commit offenses’ charge.”)]. Thus, even if the Court were to find
Defendants’ argument meritorious, it does not appear
that this would alter the charges alleged against Defendants.
After review of the language of Count One and Section 371, the Court finds that the Count properly
states an offense. The Count is specific, closely tracks
the language of Section 371, and is sufficient to allow
Defendants to prepare their defense and invoke the
double jeopardy clause. Defendants citation to Marinello v. United States in support of their allegation
that the “conspiracy to defraud offense” is deficient is
not persuasive. [Id. at 5–9]. In Marinello, the Supreme Court limited Section 7212(a) of the Internal
Revenue Code, which prohibits conspiring to obstruct
or impede the “due administration” of the tax code, to
apply only to conspiracies to interfere with targeted
governmental tax-related proceedings, not routine
things like the ordinary processing of income tax returns. 138 S.Ct. 1101, 1104–05 (2018). A violation of
Section 7212(a) is not charged in this case and no
court has found that Marinello applies or operates to
limit the scope of Section 371, which applies to conspiracies with different objectsthan those proscribed
by Section 7212(a). Defendants’ argument that Marinello somehow compels the Court to strike or alter the
offense charged in Count One is not persuasive and is
DENIED.

30a
IV. Conclusion
For the foregoing reasons, the Motion to Strike is
DENIED and the Motions to Adopt are DENIED AS
MOOT.
SO ORDERED.
September 12, 2018.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

31a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
UNITED STATES OF
AMERICA,

No. 3:14-CR-00298-M

v.
GAS PIPE, INC. (7),
AMY LYNN, INC. (8),
GERALD SHULTS (9),
AMY HERRIG (10)
ORDER

After a three-week jury trial, Defendants Gerald
Shults and Amy Herrig, along with two corporate entities which they owned and controlled, were convicted of violating 18 U.S.C. § 371. Defendants now
move for a judgment of acquittal, arguing that the evidence was insufficient to support the jury’s guilty
verdict. For the following reasons, Defendants’ Motion [ECF No. 1097] is DENIED.
I. Background
Count One of the Third Superseding Indictment
(the “Indictment”) charged Defendants with violating
18 U.S.C. § 371. [ECF No. 672 at 5]. The Count alleged
that Defendants committed such a violation by either
(1) conspiring “to defraud the United States Food and
Drug Administration [the “FDA”],” or (2) conspiring
to “commit certain offenses against the United States

32a
. . . by introducing or delivering an adulterated or misbranded drug into interstate commerce. . . .” [Id.].
The Indictment alleged facts describing Defendants’ involvement in the production and sale of certain drugs which contained synthetic cannabinoids
and were intended for human consumption, but were
labeled “not for human consumption” and “100% synthetic cannabinoid free.” [Id. at 6]. The Indictment
also alleged that these products contained misleading
labeling, marketing the products as “herbal incense,”
“potpourri,” or “aroma therapy products.” [Id.].
After a three-week jury trial, the Court instructed
the jury that it could find a Defendant guilty on Count
One if the Government proved beyond a reasonable
doubt that the Defendant and at least one other person (1) agreed to defraud the FDA or to introduce a
misbranded drug into interstate commerce with intent to defraud or mislead, (2) knew the unlawful purpose of the agreement and joined it willfully, and (3)
performed at least one of the overt acts described in
the Indictment in furtherance of the conspiracy. [ECF
No. 1045 at 11–15]. The Court specifically instructed
the jury that the Government need not prove that a
Defendant agreed to both defraud the FDA and to introduce a misbranded drug into interstate commerce
with intent to defraud or mislead. [Id. at 14]. Rather,
the Court instructed the jury that “[p]roof beyond a
reasonable doubt of one of these conspiracies [was]
enough.” [Id.].
On October 15, 2018, the jury convicted the Defendants listed above on Count One. [ECF No. 1046

33a
at 1–2]. The Court’s verdict form for Count One contained a unanimity finding section that instructed the
jury to indicate, in the event that it found Defendants
guilty on Count One, whether it found Defendants
guilty because they conspired to defraud the United
States, conspired to commit an offense against the
United States, or both. [Id. at 1–2]. The jury’s response to this section indicated that it unanimously
found that Defendants committed the offense charged
in Count One both by conspiring to defraud the
United States and also by conspiring to introduce an
adulterated or misbranded drug into interstate commerce with intent to defraud or mislead. [Id.]. The
jury acquitted Defendants on all other counts. [Id. at
3–8].
Defendants now move to set aside the jury’s verdict under Federal Rule of Criminal Procedure 29(c),
arguing that the evidence is insufficient to support
the jury’s verdict. [ECF No. 1097].
II. Legal Standard
When a defendant challenges the sufficiency of the
evidence, “the relevant question is whether, after
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt.” United States v. Uvalle-Patricio, 478 F.3d
699, 701 (5th Cir. 2007) (quoting Jackson v. Virginia,
443 U.S. 307, 319 (1979)). The evidence is sufficient
if, when viewing the evidence and any valid inferences therefrom in a light most favorable to the verdict, “a rational juror could have found [the] defendant[] guilty beyond a reasonable doubt.” United States

34a
v. Anderson, 174 F.3d 515, 522 (5th Cir. 1999). The
jury makes credibility determinations and can find
the defendant guilty even when some reasonable hypothesis of innocence exists. Id. A judgment should be
affirmed “if a rational trier of fact could have found
that the evidence established the essential elements
of the offense beyond a reasonable doubt.” United
States v. Klein, 543 F.3d 206, 212 (5th Cir. 2008) (internal quotation omitted). Thus, the jury retains the
sole authority to weigh any conflicting evidence and
evaluate witness credibility. United States v. Loe, 262
F.3d 427, 432 (5th Cir. 2001).
III. Discussion
The Court finds that the evidence was sufficient to
support the jury’s finding on both prongs of Count
One.
a. Conspiracy to Defraud the United States
Defendants argue that the evidence was insufficient to support the jury’s finding that they conspired
to defraud the United States by impairing the lawful
function of the FDA. This, Defendants argue, is because (1) the FDA was not involved in the underlying
criminal investigation, (2) there was no evidence that
Defendants specifically intended to defraud or mislead the FDA, and (3) there was no evidence that the
conspiracy sought to interfere with a specific administrative proceeding. [ECF No. 1097 at 39]. Each of
these arguments is unpersuasive, however, and the
Court finds that the evidence was sufficient to support the jury’s determination.

35a
First, the FDA’s participation in the underlying
criminal investigation is not required to establish liability under 18 U.S.C. § 371. Instead, “[t]he defraud
clause of § 371 reaches both a conspiracy to cheat the
government out of property or money and any conspiracy designed to impair, obstruct, or defeat the lawful
function of any department of the [G]overnment.”
United States v. Clark, 139 F.3d 485, 488–89 (5th Cir.
1998). “Section 371 does not require that the
[G]overnment actually be harmed; it reaches ‘any conspiracy for the [p]urpose of impairing, obstructing or
defeating the lawful function of any department of
Government.’” United States v. Shoup, 608 F.2d 950,
959 (3d Cir. 1979) (quoting Dennis v. United States,
384 U.S. 855, 861 (1966)).
Contrary to Defendants’ arguments, the evidence
was sufficient to support the jury’s conclusion that
Defendants agreed to defraud the FDA, knew the unlawful purpose of the agreement and willfully joined
in it, and performed an overt act in furtherance of the
agreement. Defendants admit that they sold misbranded products in interstate commerce. [ECF No.
1097 at 33]. Defendants’ supplier, Lawrence Shawan,
and Defendants’ employee, Joshua Campbell, both
testified that Defendants labeled these products “not
for human consumption” to avoid scrutiny or regulation by the FDA. Shawan also testified that it was obvious that the products could not have been sold if intended for human consumption.
Defendants stipulated that, despite their labeling,
the products which they sold were intended for human consumption. Defendants also stipulated that

36a
they knew that their products had a stimulant, depressant, or hallucinogenic effect on the central nervous system that was substantially similar to a Schedule I or II controlled substance. Further, the evidence
established that Defendants meticulously tested the
chemical compositions of their products, suggesting
that Defendants knew they were dealing with dangerous and highly-regulated substances. The evidence
was sufficient to permit a reasonable factfinder to find
or infer that Defendants knowingly and willfully conspired to defraud the FDA and performed an act in
furtherance of their conspiracy.
Finally, Defendants argue that there was insufficient evidence to show a nexus between the conspiracy and a specific administrative proceeding. Defendants argue that such proof is required for a conviction
on Count One under Marinello v. United States, 138
S.Ct. 1101 (2018). The Court, however, has already
rejected this argument and found that such proof is
unnecessary here. [ECF No. 947 at 6]. In Marinello,
the Supreme Court limited Section 7212(a) of the Internal Revenue Code, which prohibits conspiring to
obstruct or impede the “due administration” of the tax
code, to apply only to conspiracies designed to interfere with targeted governmental tax-related proceedings, not routine things like the ordinary processing
of income tax returns. 138 S.Ct. at 1104–05. A violation of Section 7212(a) was not charged in this case
and Defendants have identified no case where a court
found that Marinello applies in actions charging a
conspiracy to defraud the FDA, like the one here. Instead, the Government could proceed, as it did, on the
theory that Defendants intentionally defrauded or

37a
misled the FDA by seeking to evade the Agency’s lawful regulatory functions. Clark, 139 F.3d at 488–89.
Defendants are not entitled to a judgment of acquittal because the Government did not identify a
nexus between the conspiracy and a specific administrative proceeding.
b. Conspiracy to Introduce Misbranded Drug
with Intent to Defraud or Mislead
Defendants also argue that the evidence was insufficient to support the jury’s finding that they committed an offense against the United States by selling
misbranded drugs with the intent to defraud or mislead, in violation of 21 U.S.C. §§ 331 and 333. Defendants suggest that the evidence showed that everyone—Defendants, their customers, and the general
public—in fact knew that Defendant’s products were
not “herbal incense,” “potpourri,” or “aroma therapy
products,” and that these products were intended for
human consumption. [ECF No. 1097 at 15–28]. Therefore, Defendants contend no one was actually defrauded or misled by the misbranding and that Defendants did not have the required intent to defraud
or mislead.
18 U.S.C. § 371 makes it unlawful for two or more
persons to conspire to commit a federal offense. It is
axiomatic that, to be convicted of conspiracy, a defendant must possess the mental state required to
commit the object crime of the conspiracy, here the
misbranding offense proscribed by § 331 and § 333.
United States v. Buford, 889 F.2d 1406, 1409 n.5 (5th
Cir. 1989) (“To sustain a conviction for conspiracy under [§] 371 the [G]overnment must prove the requisite

38a
intent to commit the substantive offense.”). The Fifth
Circuit has held “that the [G]overnment’s evidence is
sufficient to make out a violation of [§ 333(b)] where
it shows that the defendant intentionally violated §
331 with the specific intent to defraud or mislead an
identifiable government agency.” United States v. Arlen, 947 F.3d 139, 143 (5th Cir. 1991). Thus, Defendants’ argument that they are entitled to acquittal because no consumer of their products was defrauded or
misled is unpersuasive, particularly in light of the evidence discussed above from which the jury could reasonably conclude that Defendants conspired to misbrand with the intent to defraud or mislead the FDA.1
The Court finds that the evidence was sufficient
for the jury to find or infer that Defendants sold misbranded drugs with the intent to defraud or mislead.
IV. Conclusion
For the reasons stated above, the Court finds that
the evidence was sufficient to support the jury’s guilty

Although a finding that Defendants intended to defraud or mislead the FDA is enough, the jury could also have reasonably concluded that Defendants intended to defraud or mislead consumers. The Government presented videos showing undercover officers making controlled buys of the misbranded products at Defendants’ stores. In one of these videos, Defendants’ store clerk
corrected one of the undercover officers who inquired about
smoking a product, saying: “You’re burning this as incense,
right?” Defendants stipulated that their products, contrary to
their labeling, were intended for human consumption. The evidence established that Defendants knew that these products
were not “incense,” “potpourri,” aroma therapy products,” or
“bath salts,” but that they sold them as such.

1

39a
verdict on Count One of the Indictment. Defendants’
Motion for Judgment of Acquittal is DENIED.
SO ORDERED.
June 7, 2019.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

40a
APPENDIX D
Case: 19-11145 Document: 00515904173 Page: 1
Date Filed: 06/17/2021
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-11145
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
GAS PIPE, INCORPORATED; AMY LYNN, INCORPORATED;
GERALD SHULTS; AMY HERRIG,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CR-298-7
ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion May 6, 2021, 5 CIR., ___, ___ F.3D ___ )
Before: HAYNES, HIGGINSON, and OLDHAM, Circuit
Judges.
PER CURIAM:

41a
The Petition for Rehearing as to appellants Shults
and Herrig is DENIED and no member of this panel
nor judge in regular active service on the court having
requested that the court be polled on Rehearing En
Banc, (Fed. R. App. P. and 5th Cir. R. 35) the Petition
for Rehearing En Banc is also DENIED.

42a
APPENDIX E
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 371. Conspiracy to commit offense or
to defraud United States.
If two or more persons conspire either to commit
any offense against the United States, or to defraud
the United States, or any agency thereof in any manner or for any purpose, and one or more of such persons do any act to effect the object of the conspiracy,
each shall be fined under this title or imprisoned not
more than five years, or both.
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor only,
the punishment for such conspiracy shall not exceed
the maximum punishment provided for such misdemeanor

43a
31 U.S.C. § 331. Prohibited Acts.
The following acts and the causing thereof are prohibited:
(a) The introduction or delivery for introduction into
interstate commerce of any food, drug, device, tobacco
product, or cosmetic that is adulterated or misbranded.
(b) The adulteration or misbranding of any food, drug,
device, tobacco product, or cosmetic in interstate commerce.
(c) The receipt in interstate commerce of any food,
drug, device, tobacco product, or cosmetic that is adulterated or misbranded, and the delivery or proffered
delivery thereof for pay or otherwise.
(d) The introduction or delivery for introduction into
interstate commerce of any article in violation of section 344, 350d, 355, or 360bbb-3 of this title.
(e) The refusal to permit access to or copying of any
record as required by section 350a, 350c, 350f(j), 350e,
354, 360bbb-3, 373, 374(a), 379aa, or 379aa-1 of this
title; or the failure to establish or maintain any record, or make any report, required under section 350a,
350c(b), 350f, 350e, 354, 355(i) or (k), 360b(a)(4)(C),
360b(j), (l) or (m), 360ccc-1(i), 360e(f), 360i, 360bbb-3,
379aa, 379aa-1, 387i, or 387t of this title or the refusal
to permit access to or verification or copying of any
such required record; or the violation of any recordkeeping requirement under section 2223 of this title
(except when such violation is committed by a farm).

44a
(f) The refusal to permit entry or inspection as authorized by section 374 of this title.
(g) The manufacture within any Territory of any food,
drug, device, tobacco product, or cosmetic that is adulterated or misbranded.
(h) The giving of a guaranty or undertaking referred
to in section 333(c)(2) of this title, which guaranty or
undertaking is false, except by a person who relied
upon a guaranty or undertaking to the same effect
signed by, and containing the name and address of,
the person residing in the United States from whom
he received in good faith the food, drug, device, tobacco product, or cosmetic; or the giving of a guaranty
or undertaking referred to in section 333(c)(3) of this
title, which guaranty or undertaking is false.
(i)(1) Forging, counterfeiting, simulating, or falsely
representing, or without proper authority using any
mark, stamp, tag, label, or other identification device
authorized or required by regulations promulgated
under the provisions of section 344 or 379e of this title.
(2) Making, selling, disposing of, or keeping in possession, control, or custody, or concealing any punch, die,
plate, stone, or other thing designed to print, imprint,
or reproduce the trademark, trade name, or other
identifying mark, imprint, or device of another or any
likeness of any of the foregoing upon any drug or container or labeling thereof so as to render such drug a
counterfeit drug.

45a
(3) The doing of any act which causes a drug to be a
counterfeit drug, or the sale or dispensing, or the holding for sale or dispensing, of a counterfeit drug.
(j) The using by any person to his own advantage, or
revealing, other than to the Secretary or officers or
employees of the Department, or to the courts when
relevant in any judicial proceeding under this chapter, any information acquired under authority of section 344, 348, 350a, 350c, 355, 360, 360b, 360c, 360d,
360e, 360f, 360h, 360i, 360j, 360ccc, 360ccc-1, 360ccc2, 374, 379, 379e, 387d, 387e, 387f, 387g, 387h, 387i,
or 387t(b) of this title concerning any method or process which as a trade secret is entitled to protection;
or the violating of section 346a(i)(2) of this title or any
regulation issued under that section.1 This paragraph
does not authorize the withholding of information
from either House of Congress or from, to the extent
of matter within its jurisdiction, any committee or
subcommittee of such committee or any joint committee of Congress or any subcommittee of such joint
committee.
(k) The alteration, mutilation, destruction, obliteration, or removal of the whole or any part of the labeling of, or the doing of any other act with respect to, a
food, drug, device, tobacco product, or cosmetic, if such
act is done while such article is held for sale (whether
or not the first sale) after shipment in interstate commerce and results in such article being adulterated or
misbranded.

1

So in original.

46a
(l) Repealed. Pub.L. 105-115, Title IV, § 421, Nov. 21,
1997, 111 Stat. 2380.
(m) The sale or offering for sale of colored oleomargarine or colored margarine, or the possession or serving
of colored oleomargarine or colored margarine in violation of subsections (b) or (c) of section 347 of this title.
(n) The using, in labeling, advertising or other sales
promotion of any reference to any report or analysis
furnished in compliance with section 374 of this title.
(o) In the case of a prescription drug distributed or offered for sale in interstate commerce, the failure of
the manufacturer, packer, or distributor thereof to
maintain for transmittal, or to transmit, to any practitioner licensed by applicable State law to administer
such drug who makes written request for information
as to such drug, true and correct copies of all printed
matter which is required to be included in any package in which that drug is distributed or sold, or such
other printed matter as is approved by the Secretary.
Nothing in this paragraph shall be construed to exempt any person from any labeling requirement imposed by or under other provisions of this chapter.
(p) The failure to register in accordance with section
360 or 387e of this title, the failure to provide any information required by section 360(j), 360(k), 387e(i),
or 387e(j) of this title, or the failure to provide a notice
required by section 360(j)(2) or 387e(i)(3) of this title.
(q)(1) The failure or refusal—

47a
(A) to comply with any requirement prescribed under section 360h, 360j(g), 387c(b), 387g, 387h, or
387o of this title;
(B) to furnish any notification or other material or
information required by or under section 360i,
360j(g), 387d, 387i, or 387t of this title; or
(C) to comply with a requirement under section
360l or 387m of this title.
(2) With respect to any device or tobacco product, the
submission of any report that is required by or under
this chapter that is false or misleading in any material respect.
(r) The movement of a device, drug, or tobacco product
in violation of an order under section 334(g) of this title or the removal or alteration of any mark or label
required by the order to identify the device, drug, or
tobacco product as detained.
(s) The failure to provide the notice required by section 350a(c) or 350a(e) of this title, the failure to make
the reports required by section 350a(f)(1)(B) of this title, the failure to retain the records required by section 350a(b)(4) of this title, or the failure to meet the
requirements prescribed under section 350a(f)(3) of
this title.
(t) The importation of a drug in violation of section
381(d)(1) of this title, the sale, purchase, or trade of a
drug or drug sample or the offer to sell, purchase, or
trade a drug or drug sample in violation of section
353(c) of this title, the sale, purchase, or trade of a
coupon, the offer to sell, purchase, or trade such a coupon, or the counterfeiting of such a coupon in violation

48a
of section 353(c)(2) of this title, the distribution of a
drug sample in violation of section 353(d) of this title
or the failure to otherwise comply with the requirements of section 353(d) of this title, the distribution of
drugs in violation of section 353(e) of this title, failure
to comply with the requirements under section
360eee-1 of this title, the failure to comply with the
requirements under section 360eee-3 of this title, as
applicable, or the failure to otherwise comply with the
requirements of section 353(e) of this title.
(u) The failure to comply with any requirements of the
provisions of, or any regulations or orders of the Secretary, under section 360b(a)(4)(A), 360b(a)(4)(D), or
360b(a)(5) of this title.
(v) The introduction or delivery for introduction into
interstate commerce of a dietary supplement that is
unsafe under section 350b of this title.
(w) The making of a knowingly false statement in any
statement, certificate of analysis, record, or report required or requested under section 381(d)(3) of this title; the failure to submit a certificate of analysis as
required under such section; the failure to maintain
records or to submit records or reports as required by
such section; the release into interstate commerce of
any article or portion thereof imported into the United
States under such section or any finished product
made from such article or portion, except for export in
accordance with section 381(e) or 382 of this title, or
with section 262(h) of Title 42; or the failure to so export or to destroy such an article or portions thereof,
or such a finished product.

49a
(x) The falsification of a declaration of conformity submitted under section 360d(c) of this title or the failure
or refusal to provide data or information requested by
the Secretary under paragraph (3) of such section.
(y) In the case of a drug, device, or food—
(1) the submission of a report or recommendation
by a person accredited under section 360m of this
title that is false or misleading in any material respect;
(2) the disclosure by a person accredited under section 360m of this title of confidential commercial
information or any trade secret without the express written consent of the person who submitted
such information or secret to such person; or
(3) the receipt by a person accredited under section
360m of this title of a bribe in any form or the doing of any corrupt act by such person associated
with a responsibility delegated to such person under this chapter.
(z) Omitted
(aa) The importation of a prescription drug in violation of section 384 of this title, the falsification of any
record required to be maintained or provided to the
Secretary under such section, or any other violation of
regulations under such section.
(bb) The transfer of an article of food in violation of an
order under section 334(h) of this title, or the removal
or alteration of any mark or label required by the order to identify the article as detained.

50a
(cc) The importing or offering for import into the
United States of an article of food or a drug by, with
the assistance of, or at the direction of, a person debarred from such activity under section 335a(b)(3) of
this title.
(dd) The failure to register in accordance with section
350d of this title.
(ee) The importing or offering for import into the
United States of an article of food in violation of the
requirements under section 381(m) of this title.
(ff) The importing or offering for import into the
United States of a drug or device with respect to
which there is a failure to comply with a request of
the Secretary to submit to the Secretary a statement
under section 381(o) of this title.
(gg) The knowing failure to comply with paragraph
(7)(E) of section 374(g) of this title; the knowing inclusion by a person accredited under paragraph (2) of
such section of false information in an inspection report under paragraph (7)(A) of such section; or the
knowing failure of such a person to include material
facts in such a report.
(hh) The failure by a shipper, carrier by motor vehicle
or rail vehicle, receiver, or any other person engaged
in the transportation of food to comply with the sanitary transportation practices prescribed by the Secretary under section 350e of this title.
(ii) The falsification of a report of a serious adverse
event submitted to a responsible person (as defined
under section 379aa or 379aa-1 of this title) or the falsification of a serious adverse event report (as defined

51a
under section 379aa or 379aa-1 of this title) submitted
to the Secretary.
(jj)(1) The failure to submit the certification required
by section 282(j)(5)(B) of Title 42, or knowingly submitting a false certification under such section.
(2) The failure to submit clinical trial information required under subsection (j) of section 282 of Title 42.
(3) The submission of clinical trial information under
subsection (j) of section 282 of Title 42 that is false or
misleading in any particular under paragraph (5)(D)
of such subsection (j).
(kk) The dissemination of a television advertisement
without complying with section 353c of this title.
(ll) The introduction or delivery for introduction into
interstate commerce of any food to which has been
added a drug approved under section 355 of this title,
a biological product licensed under section 262 of Title
42, or a drug or a biological product for which substantial clinical investigations have been instituted and
for which the existence of such investigations has
been made public, unless—
(1) such drug or such biological product was marketed in food before any approval of the drug under section 355 of this title, before licensure of the
biological product under such section 262 of Title
42, and before any substantial clinical investigations involving the drug or the biological product
have been instituted;

52a
(2) the Secretary, in the Secretary's discretion, has
issued a regulation, after notice and comment, approving the use of such drug or such biological
product in the food;
(3) the use of the drug or the biological product in
the food is to enhance the safety of the food to
which the drug or the biological product is added
or applied and not to have independent biological
or therapeutic effects on humans, and the use is in
conformity with-(A) a regulation issued under section 348 of this
title prescribing conditions of safe use in food;
(B) a regulation listing or affirming conditions
under which the use of the drug or the biological product in food is generally recognized as
safe;
(C) the conditions of use identified in a notification to the Secretary of a claim of exemption
from the premarket approval requirements for
food additives based on the notifier's determination that the use of the drug or the biological
product in food is generally recognized as safe,
provided that the Secretary has not questioned
the general recognition of safety determination
in a letter to the notifier;
(D) a food contact substance notification that is
effective under section 348(h) of this title; or
(E) such drug or biological product had been
marketed for smoking cessation prior to September 27, 2007; or

53a
(4) the drug is a new animal drug whose use is not
unsafe under section 360b of this title.
(mm) The failure to submit a report or provide a notification required under section 350f(d) of this title.
(nn) The falsification of a report or notification required under section 350f(d) of this title.
(oo) The sale of tobacco products in violation of a notobacco-sale order issued under section 333(f) of this
title.
(pp) The introduction or delivery for introduction into
interstate commerce of a tobacco product in violation
of section 387k of this title.
(qq)(1) Forging, counterfeiting, simulating, or falsely
representing, or without proper authority using any
mark, stamp (including tax stamp), tag, label, or other
identification device upon any tobacco product or container or labeling thereof so as to render such tobacco
product a counterfeit tobacco product.
(2) Making, selling, disposing of, or keeping in possession, control, or custody, or concealing any punch, die,
plate, stone, or other item that is designed to print,
imprint, or reproduce the trademark, trade name, or
other identifying mark, imprint, or device of another
or any likeness of any of the foregoing upon any tobacco product or container or labeling thereof so as to
render such tobacco product a counterfeit tobacco
product.

54a
(3) The doing of any act that causes a tobacco product
to be a counterfeit tobacco product, or the sale or dispensing, or the holding for sale or dispensing, of a
counterfeit tobacco product.
(rr) The charitable distribution of tobacco products.
(ss) The failure of a manufacturer or distributor to notify the Attorney General and the Secretary of the
Treasury of their knowledge of tobacco products used
in illicit trade.
(tt) Making any express or implied statement or representation directed to consumers with respect to a
tobacco product, in a label or labeling or through the
media or advertising, that either conveys, or misleads
or would mislead consumers into believing, that—
(1) the product is approved by the Food and Drug
Administration;
(2) the Food and Drug Administration deems the
product to be safe for use by consumers;
(3) the product is endorsed by the Food and Drug
Administration for use by consumers; or
(4) the product is safe or less harmful by virtue
of—
(A) its regulation or inspection by the Food and
Drug Administration; or
(B) its compliance with regulatory requirements set by the Food and Drug Administration;

55a
including any such statement or representation rendering the product misbranded under
section 387c of this title.
(uu) The operation of a facility that manufactures,
processes, packs, or holds food for sale in the United
States if the owner, operator, or agent in charge of
such facility is not in compliance with section 350g of
this title.
(vv) The failure to comply with the requirements under section 350h of this title.
(ww) The failure to comply with section 350i of this
title.
(xx) The refusal or failure to follow an order under
section 350l of this title.
(yy) The knowing and willful failure to comply with
the notification requirement under section 350f(h) of
this title.
(zz) The importation or offering for importation of a
food if the importer (as defined in section 384a of this
title) does not have in place a foreign supplier verification program in compliance with such section 384a
of this title.
(aaa) The failure to register in accordance with section 381(s) of this title.
(bbb) The failure to notify the Secretary in violation
of section 360bbb-7 of this title.
(ccc)(1) The resale of a compounded drug that is labeled “not for resale” in accordance with section 353b
of this title.

56a
(2) With respect to a drug to be compounded pursuant
to section 353a or 353b of this title, the intentional
falsification of a prescription, as applicable.
(3) The failure to report drugs or adverse events by an
entity that is registered in accordance with subsection
(b) of section 353b of this title.
(ddd)(1) The manufacture or the introduction or delivery for introduction into interstate commerce of a
rinse-off cosmetic that contains intentionally-added
plastic microbeads.
(2) In this paragraph—
(A) the term “plastic microbead” means any solid
plastic particle that is less than five millimeters in
size and is intended to be used to exfoliate or
cleanse the human body or any part thereof; and
(B) the term “rinse-off cosmetic” includes toothpaste.
(eee) The failure to comply with any order issued under section 360bbb-8d of this title.

57a
31 U.S.C. § 333. Penalties
(a) Violation of section 331 of this title; second
violation; intent to defraud or mislead
(1) Any person who violates a provision of section 331
of this title shall be imprisoned for not more than one
year or fined not more than $1,000, or both.
(2) Notwithstanding the provisions of paragraph (1) of
this section1, if any person commits such a violation
after a conviction of him under this section has become final, or commits such a violation with the intent
to defraud or mislead, such person shall be imprisoned for not more than three years or fined not more
than $10,000, or both.
(b) Prescription drug marketing violations
(1) Notwithstanding subsection (a), any person who
violates section 331(t) of this title by—
(A) knowingly importing a drug in violation of section 381(d)(1) of this title,
(B) knowingly selling, purchasing, or trading a
drug or drug sample or knowingly offering to sell,
purchase, or trade a drug or drug sample, in violation of section 353(c)(1) of this title,
(C) knowingly selling, purchasing, or trading a
coupon, knowingly offering to sell, purchase, or
trade such a coupon, or knowingly counterfeiting
such a coupon, in violation of section 353(c)(2) of
this title, or
So in original. Words “of this section” probably should not appear.

1

58a
(D) knowingly distributing drugs in violation of
section 353(e)(1) of this title,
shall be imprisoned for not more than 10 years or
fined not more than $250,000, or both.
(2) Any manufacturer or distributor who distributes
drug samples by means other than the mail or common carrier whose representative, during the course
of the representative's employment or association
with that manufacturer or distributor, violated section 331(t) of this title because of a violation of section
353(c)(1) of this title or violated any State law prohibiting the sale, purchase, or trade of a drug sample subject to section 353(b) of this title or the offer to sell,
purchase, or trade such a drug sample shall, upon
conviction of the representative for such violation, be
subject to the following civil penalties:
(A) A civil penalty of not more than $50,000 for
each of the first two such violations resulting in a
conviction of any representative of the manufacturer or distributor in any 10-year period.
(B) A civil penalty of not more than $1,000,000 for
each violation resulting in a conviction of any representative after the second conviction in any 10year period.
For the purposes of this paragraph, multiple convictions of one or more persons arising out of the same
event or transaction, or a related series of events or
transactions, shall be considered as one violation.
(3) Any manufacturer or distributor who violates section 331(t) of this title because of a failure to make a
report required by section 353(d)(3)(E) of this title

59a
shall be subject to a civil penalty of not more than
$100,000.
(4)(A) If a manufacturer or distributor or any representative of such manufacturer or distributor provides information leading to the institution of a criminal proceeding against, and conviction of, any representative of that manufacturer or distributor for a violation of section 331(t) of this title because of a sale,
purchase, or trade or offer to purchase, sell, or trade
a drug sample in violation of section 353(c)(1) of this
title or for a violation of State law prohibiting the sale,
purchase, or trade or offer to sell, purchase, or trade
a drug sample, the conviction of such representative
shall not be considered as a violation for purposes of
paragraph (2).
(B) If, in an action brought under paragraph (2)
against a manufacturer or distributor relating to the
conviction of a representative of such manufacturer or
distributor for the sale, purchase, or trade of a drug
or the offer to sell, purchase, or trade a drug, it is
shown, by clear and convincing evidence—
(i) that the manufacturer or distributor conducted,
before the institution of a criminal proceeding
against such representative for the violation
which resulted in such conviction, an investigation
of events or transactions which would have led to
the reporting of information leading to the institution of a criminal proceeding against, and conviction of, such representative for such purchase,
sale, or trade or offer to purchase, sell, or trade, or

60a
(ii) that, except in the case of the conviction of a
representative employed in a supervisory function, despite diligent implementation by the manufacturer or distributor of an independent audit
and security system designed to detect such a violation, the manufacturer or distributor could not
reasonably have been expected to have detected
such violation,
the conviction of such representative shall not be considered as a conviction for purposes of paragraph (2).
(5) If a person provides information leading to the institution of a criminal proceeding against, and conviction of, a person for a violation of section 331(t) of this
title because of the sale, purchase, or trade of a drug
sample or the offer to sell, purchase, or trade a drug
sample in violation of section 353(c)(1) of this title,
such person shall be entitled to one-half of the criminal fine imposed and collected for such violation but
not more than $125,000.
(6) Notwithstanding subsection (a), any person who is
a manufacturer or importer of a prescription drug under section 384(b) of this title and knowingly fails to
comply with a requirement of section 384(e) of this title that is applicable to such manufacturer or importer, respectively, shall be imprisoned for not more
than 10 years or fined not more than $250,000, or
both.
(7) Notwithstanding subsection (a)(2), any person
that knowingly and intentionally adulterates a drug
such that the drug is adulterated under subsection
(a)(1), (b), (c), or (d) of section 351 of this title and has
a reasonable probability of causing serious adverse

61a
health consequences or death to humans or animals
shall be imprisoned for not more than 20 years or
fined not more than $1,000,000, or both.
(8) Notwithstanding subsection (a), any person who
violates section 331(i)(3) of this title by knowingly
making, selling or dispensing, or holding for sale or
dispensing, a counterfeit drug shall be imprisoned for
not more than 10 years or fined in accordance with
Title 18, or both.
(c) Exceptions in certain cases of good faith, etc.
No person shall be subject to the penalties of subsection (a)(1) of this section, (1) for having received in interstate commerce any article and delivered it or proffered delivery of it, if such delivery or proffer was
made in good faith, unless he refuses to furnish on request of an officer or employee duly designated by the
Secretary the name and address of the person from
whom he purchased or received such article and copies of all documents, if any there be, pertaining to the
delivery of the article to him; or (2) for having violated
section 331(a) or (d) of this title, if he establishes a
guaranty or undertaking signed by, and containing
the name and address of, the person residing in the
United States from whom he received in good faith
the article, to the effect, in case of an alleged violation
of section 331(a) of this title, that such article is not
adulterated or misbranded, within the meaning of
this chapter designating this chapter or to the effect,
in case of an alleged violation of section 331(d) of this
title, that such article is not an article which may not,
under the provisions of section 344 or 355 of this title,

62a
be introduced into interstate commerce; or (3) for having violated section 331(a) of this title, where the violation exists because the article is adulterated by reason of containing a color additive not from a batch certified in accordance with regulations promulgated by
the Secretary under this chapter, if such person establishes a guaranty or undertaking signed by, and
containing the name and address of, the manufacturer of the color additive, to the effect that such color
additive was from a batch certified in accordance with
the applicable regulations promulgated by the Secretary under this chapter; or (4) for having violated section 331(b), (c) or (k) of this title by failure to comply
with section 352(f) of this title in respect to an article
received in interstate commerce to which neither section 353(a) nor 353(b)(1) of this title is applicable, if
the delivery or proffered delivery was made in good
faith and the labeling at the time thereof contained
the same directions for use and warning statements
as were contained in the labeling at the time of such
receipt of such article; or (5) for having violated section 331(i)(2) of this title if such person acted in good
faith and had no reason to believe that use of the
punch, die, plate, stone, or other thing involved would
result in a drug being a counterfeit drug, or for having
violated section 331(i)(3) of this title if the person doing the act or causing it to be done acted in good faith
and had no reason to believe that the drug was a counterfeit drug.
(d) Exceptions involving misbranded food
No person shall be subject to the penalties of subsection (a)(1) of this section for a violation of section 331
of this title involving misbranded food if the violation

63a
exists solely because the food is misbranded under
section 343(a)(2) of this title because of its advertising.
(e) Prohibited distribution of human growth
hormone
(1) Except as provided in paragraph (2), whoever
knowingly distributes, or possesses with intent to distribute, human growth hormone for any use in humans other than the treatment of a disease or other
recognized medical condition, where such use has
been authorized by the Secretary of Health and Human Services under section 355 of this title and pursuant to the order of a physician, is guilty of an offense
punishable by not more than 5 years in prison, such
fines as are authorized by Title 18, or both.
(2) Whoever commits any offense set forth in paragraph (1) and such offense involves an individual under 18 years of age is punishable by not more than 10
years imprisonment, such fines as are authorized by
Title 18, or both.
(3) Any conviction for a violation of paragraphs (1)
and (2) of this subsection shall be considered a felony
violation of the Controlled Substances Act for the purposes of forfeiture under section 413 of such Act.
(4) As used in this subsection the term “human
growth hormone” means somatrem, somatropin, or an
analogue of either of them.
(5) The Drug Enforcement Administration is authorized to investigate offenses punishable by this subsection.

64a
(f) Violations related to devices
(1)(A) Except as provided in subparagraph (B), any
person who violates a requirement of this chapter
which relates to devices shall be liable to the United
States for a civil penalty in an amount not to exceed
$15,000 for each such violation, and not to exceed
$1,000,000 for all such violations adjudicated in a single proceeding. For purposes of the preceding sentence, a person accredited under paragraph (2) of section 374(g) of this title who is substantially not in
compliance with the standards of accreditation under
such section, or who poses a threat to public health or
fails to act in a manner that is consistent with the
purposes of such section, shall be considered to have
violated a requirement of this chapter that relates to
devices.
(B) Subparagraph (A) shall not apply—
(i) to any person who violates the requirements of
section 360i(a) or 360j(f) of this title unless such
violation constitutes (I) a significant or knowing
departure from such requirements, or (II) a risk to
public health,
(ii) to any person who commits minor violations of
section 360i(e) or 360i(g) of this title (only with respect to correction reports) if such person demonstrates substantial compliance with such section,
or
(iii) to violations of section 351(a)(2)(A) of this title
which involve one or more devices which are not
defective.

65a
(2)(A) Any person who introduces into interstate commerce or delivers for introduction into interstate commerce an article of food that is adulterated within the
meaning of section 342(a)(2)(B) of this title or any person who does not comply with a recall order under section 350l of this title shall be subject to a civil money
penalty of not more than $50,000 in the case of an individual and $250,000 in the case of any other person
for such introduction or delivery, not to exceed
$500,000 for all such violations adjudicated in a single
proceeding.
(B) This paragraph shall not apply to any person who
grew the article of food that is adulterated. If the Secretary assesses a civil penalty against any person under this paragraph, the Secretary may not use the
criminal authorities under this section to sanction
such person for the introduction or delivery for introduction into interstate commerce of the article of food
that is adulterated. If the Secretary assesses a civil
penalty against any person under this paragraph, the
Secretary may not use the seizure authorities of section 334 of this title or the injunction authorities of
section 332 of this title with respect to the article of
food that is adulterated.
(C) In a hearing to assess a civil penalty under this
paragraph, the presiding officer shall have the same
authority with regard to compelling testimony or production of documents as a presiding officer has under
section 346a(g)(2)(B) of this title. The third sentence
of paragraph (5)(A) shall not apply to any investigation under this paragraph.

66a
(3)(A) Any person who violates section 331(jj) of this
title shall be subject to a civil monetary penalty of not
more than $10,000 for all violations adjudicated in a
single proceeding.
(B) If a violation of section 331(jj) of this title is not
corrected within the 30-day period following notification under section 282(j)(5)(C)(ii) of Title 42, the person shall, in addition to any penalty under subparagraph (A), be subject to a civil monetary penalty of not
more than $10,000 for each day of the violation after
such period until the violation is corrected.
(4)(A) Any responsible person (as such term is used in
section 355-1 of this title) that violates a requirement
of section 355(o), 355(p), or 355-1 of this title shall be
subject to a civil monetary penalty of—
(i) not more than $250,000 per violation, and not
to exceed $1,000,000 for all such violations adjudicated in a single proceeding; or
(ii) in the case of a violation that continues after
the Secretary provides written notice to the responsible person, the responsible person shall be
subject to a civil monetary penalty of $250,000 for
the first 30-day period (or any portion thereof) that
the responsible person continues to be in violation,
and such amount shall double for every 30-day period thereafter that the violation continues, not to
exceed $1,000,000 for any 30-day period, and not
to exceed $10,000,000 for all such violations adjudicated in a single proceeding.
(B) In determining the amount of a civil penalty under
subparagraph (A)(ii), the Secretary shall take into

67a
consideration whether the responsible person is making efforts toward correcting the violation of the requirement of section 355(o), 355(p), or 355-1 of this title for which the responsible person is subject to such
civil penalty.
(5)(A) A civil penalty under paragraph (1), (2), (3), (4),
or (9) shall be assessed, or a no-tobacco-sale order may
be imposed, by the Secretary by an order made on the
record after opportunity for a hearing provided in accordance with this subparagraph and section 554 of
Title 5. Before issuing such an order, the Secretary
shall give written notice to the person to be assessed
a civil penalty, or upon whom a no-tobacco-sale order
is to be imposed, under such order of the Secretary's
proposal to issue such order and provide such person
an opportunity for a hearing on the order. In the
course of any investigation, the Secretary may issue
subpoenas requiring the attendance and testimony of
witnesses and the production of evidence that relates
to the matter under investigation.
(B) In determining the amount of a civil penalty, or
the period to be covered by a no-tobacco-sale order,
the Secretary shall take into account the nature, circumstances, extent, and gravity of the violation or violations and, with respect to the violator, ability to
pay, effect on ability to continue to do business, any
history of prior such violations, the degree of culpability, and such other matters as justice may require. A
no-tobacco-sale order permanently prohibiting an individual retail outlet from selling tobacco products
shall include provisions that allow the outlet, after a
specified period of time, to request that the Secretary
compromise, modify, or terminate the order.

68a
(C) The Secretary may compromise, modify, or remit,
with or without conditions, any civil penalty which
may be assessed under paragraph (1), (2), (3), (4), or
(9). The amount of such penalty, when finally determined, or the amount agreed upon in compromise,
may be deducted from any sums owing by the United
States to the person charged.
(D) The Secretary may compromise, modify, or terminate, with or without conditions, any no-tobacco-sale
order.
(6) Any person who requested, in accordance with paragraph (5)(A), a hearing respecting the assessment of
a civil penalty or the imposition of a no-tobacco-sale
order and who is aggrieved by an order assessing a
civil penalty or the imposition of a notobacco-sale order may file a petition for judicial review of such order
with the United States Court of Appeals for the District of Columbia Circuit or for any other circuit in
which such person resides or transacts business. Such
a petition may only be filed within the 60-day period
beginning on the date the order making such assessment was issued, or on which the no-tobaccosale order
was imposed, as the case may be.
(7) If any person fails to pay an assessment of a civil
penalty—
(A) after the order making the assessment becomes final, and if such person does not file a petition for judicial review of the order in accordance
with paragraph (6), or

69a
(B) after a court in an action brought under paragraph (6) has entered a final judgment in favor of
the Secretary,
the Attorney General shall recover the amount assessed (plus interest at currently prevailing rates
from the date of the expiration of the 60-day period
referred to in paragraph (6) or the date of such final
judgment, as the case may be) in an action brought in
any appropriate district court of the United States. In
such an action, the validity, amount, and appropriateness of such penalty shall not be subject to review.
(8) If the Secretary finds that a person has committed
repeated violations of section 387f(d)(5) of this title or
of restrictions promulgated under section 387f(d) of
this title at a particular retail outlet then the Secretary may impose a no-tobacco-sale order on that person prohibiting the sale of tobacco products in that
outlet. A no-tobacco-sale order may be imposed with a
civil penalty under paragraph (1). Prior to the entry
of a no-sale order under this paragraph, a person shall
be entitled to a hearing pursuant to the procedures
established through regulations of the Food and Drug
Administration for assessing civil money penalties,
including at a retailer's request a hearing by telephone, or at the nearest regional or field office of the
Food and Drug Administration, or at a Federal, State,
or county facility within 100 miles from the location
of the retail outlet, if such a facility is available.
(9) Civil monetary penalties for violation of tobacco product requirements
(A) In general

70a
Subject to subparagraph (B), any person who violates a requirement of this chapter which relates
to tobacco products shall be liable to the United
States for a civil penalty in an amount not to exceed $15,000 for each such violation, and not to exceed $1,000,000 for all such violations adjudicated
in a single proceeding.
(B) Enhanced penalties
(i) Any person who intentionally violates a requirement of section 387b(5), 387b(6), 387d, 387h(c), or
387k(a) of this title, shall be subject to a civil monetary penalty of—
(I) not to exceed $250,000 per violation, and not
to exceed $1,000,000 for all such violations adjudicated in a single proceeding; or
(II) in the case of a violation that continues after the Secretary provides written notice to
such person, $250,000 for the first 30-day period (or any portion thereof) that the person
continues to be in violation, and such amount
shall double for every 30-day period thereafter
that the violation continues, not to exceed
$1,000,000 for any 30-day period, and not to exceed $10,000,000 for all such violations adjudicated in a single proceeding.
(ii) Any person who violates a requirement of section 387k(g)(2)(C)(ii) or 387k(i)(1) of this title,
shall be subject to a civil monetary penalty of—
(I) not to exceed $250,000 per violation, and not
to exceed $1,000,000 for all such violations adjudicated in a single proceeding; or

71a
(II) in the case of a violation that continues after the Secretary provides written notice to
such person, $250,000 for the first 30-day period (or any portion thereof) that the person
continues to be in violation, and such amount
shall double for every 30-day period thereafter
that the violation continues, not to exceed
$1,000,000 for any 30-day period, and not to exceed $10,000,000 for all such violations adjudicated in a single proceeding.
(iii) In determining the amount of a civil penalty
under clause (i)(II) or (ii)(II), the Secretary shall
take into consideration whether the person is
making efforts toward correcting the violation of
the requirements of the section for which such person is subject to such civil penalty.
(g) Violations regarding direct-to-consumer advertising
(1) With respect to a person who is a holder of an approved application under section 355 of this title for a
drug subject to section 353(b) of this title or under section 262 of Title 42, any such person who disseminates or causes another party to disseminate adirectto-consumer advertisement that is false or misleading
shall be liable to the United States for a civil penalty
in an amount not to exceed $250,000 for the first such
violation in any 3-year period, and not to exceed
$500,000 for each subsequent violation in any 3-year
period. No other civil monetary penalties in this chapter (including the civil penalty in subsection (f)(4))
shall apply to a violation regarding direct-to-consumer advertising. For purposes of this paragraph:

72a
(A) Repeated dissemination of the same or similar advertisement prior to the receipt of the written notice
referred to in paragraph (2) for such advertisements
shall be considered one violation. (B) On and after the
date of the receipt of such a notice, all violations under
this paragraph occurring in a single day shall be considered one violation. With respect to advertisements
that appear in magazines or other publications that
are published less frequently than daily, each issue
date (whether weekly or monthly) shall be treated as
a single day for the purpose of calculating the number
of violations under this paragraph.
(2) A civil penalty under paragraph (1) shall be assessed by the Secretary by an order made on the record after providing written notice to the person to be
assessed a civil penalty and an opportunity for a hearing in accordance with this paragraph and section 554
of Title 5. If upon receipt of the written notice, the person to be assessed a civil penalty objects and requests
a hearing, then in the course of any investigation related to such hearing, the Secretary may issue subpoenas requiring the attendance and testimony of
witnesses and the production of evidence that relates
to the matter under investigation, including information pertaining to the factors described in paragraph (3).
(3) The Secretary, in determining the amount of the
civil penalty under paragraph (1), shall take into account the nature, circumstances, extent, and gravity
of the violation or violations, including the following
factors:

73a
(A) Whether the person submitted the advertisement or a similar advertisement for review under
section 379h-1 of this title.
(B) Whether the person submitted the advertisement for review if required under section 353c of
this title.
(C) Whether, after submission of the advertisement as described in subparagraph (A) or (B), the
person disseminated or caused another party to
disseminate the advertisement before the end of
the 45-day comment period.
(D) Whether the person incorporated any comments made by the Secretary with regard to the
advertisement into the advertisement prior to its
dissemination.
(E) Whether the person ceased distribution of the
advertisement upon receipt of the written notice
referred to in paragraph (2) for such advertisement.
(F) Whether the person had the advertisement reviewed by qualified medical, regulatory, and legal
reviewers prior to its dissemination.
(G) Whether the violations were material.
(H) Whether the person who created the advertisement or caused the advertisement to be created
acted in good faith.
(I) Whether the person who created the advertisement or caused the advertisement to be created
has been assessed a civil penalty under this provision within the previous 1-year period.

74a
(J) The scope and extent of any voluntary, subsequent remedial action by the person.
(K) Such other matters, as justice may require.
(4)(A) Subject to subparagraph (B), no person shall be
required to pay a civil penalty under paragraph (1) if
the person submitted the advertisement to the Secretary and disseminated or caused another party to disseminate such advertisement after incorporating
each comment received from the Secretary.
(B) The Secretary may retract or modify any prior
comments the Secretary has provided to an advertisement submitted to the Secretary based on new information or changed circumstances, so long as the Secretary provides written notice to the person of the new
views of the Secretary on the advertisement and provides a reasonable time for modification or correction
of the advertisement prior to seeking any civil penalty
under paragraph (1).
(5) The Secretary may compromise, modify, or remit,
with or without conditions, any civil penalty which
may be assessed under paragraph (1). The amount of
such penalty, when finally determined, or the amount
charged upon in compromise, may be deducted from
any sums owed by the United States to the person
charged.
(6) Any person who requested, in accordance with paragraph (2), a hearing with respect to the assessment
of a civil penalty and who is aggrieved by an order assessing a civil penalty, may file a petition for de novo
judicial review of such order with the United States
Court of Appeals for the District of Columbia Circuit

75a
or for any other circuit in which such person resides
or transacts business. Such a petition may only be
filed within the 60-day period beginning on the date
the order making such assessments was issued.
(7) If any person fails to pay an assessment of a civil
penalty under paragraph (1)—
(A) after the order making the assessment becomes final, and if such person does not file a petition for judicial review of the order in accordance
with paragraph (6), or
(B) after a court in an action brought under paragraph (6) has entered a final judgment in favor of
the Secretary,
the Attorney General of the United States shall recover the amount assessed (plus interest at currently
prevailing rates from the date of the expiration of the
60-day period referred to in paragraph (6) or the date
of such final judgment, as the case may be) in an action brought in any appropriate district court of the
United States. In such an action, the validity,
amount, and appropriateness of such penalty shall
not be subject to review.

76a
31 U.S.C. § 352. Misbranded drugs and devices
Effective: March 27, 2020
A drug or device shall be deemed to be misbranded—
(a) False or misleading label
(1) If its labeling is false or misleading in any particular. Health care economic information provided to a
payor, formulary committee, or other similar entity
with knowledge and expertise in the area of health
care economic analysis, carrying out its responsibilities for the selection of drugs for coverage or reimbursement, shall not be considered to be false or misleading under this paragraph if the health care economic information relates to an indication approved
under section 355 of this title or under section 262(a)
of Title 42 for such drug, is based on competent and
reliable scientific evidence, and includes, where applicable, a conspicuous and prominent statement describing any material differences between the health
care economic information and the labeling approved
for the drug under section 355 of this title or under
section 262 of Title 42. The requirements set forth in
section 355(a) of this title or in subsections (a) and (k)
of section 262 of Title 42 shall not apply to health care
economic information provided to such a payor, committee, or entity in accordance with this paragraph.
Information that is relevant to the substantiation of
the health care economic information presented pursuant to this paragraph shall be made available to the
Secretary upon request.

77a
(2)(A) For purposes of this paragraph,1 the term
“health care economic information” means any analysis (including the clinical data, inputs, clinical or
other assumptions, methods, results, and other components underlying or comprising the analysis) that
identifies, measures, or describes the economic consequences, which may be based on the separate or aggregated clinical consequences of the represented
health outcomes, of the use of a drug. Such analysis
may be comparative to the use of another drug, to another health care intervention, or to no intervention.
(B) Such term does not include any analysis that relates only to an indication that is not approved under
section 355 of this title or under section 262 of Title
42 for such drug.
(b) Package form; contents of label
If in package form unless it bears a label containing
(1) the name and place of business of the manufacturer, packer, or distributor; and (2) an accurate
statement of the quantity of the contents in terms of
weight, measure, or numerical count: Provided, That
under clause (2) of this paragraph reasonable variations shall be permitted, and exemptions as to small
packages shall be established, by regulations prescribed by the Secretary.
(c) Prominence of information on label
If any word, statement, or other information required
by or under authority of this chapter to appear on the
So in original. The term “health care economic information” appears only in par. (1).

1

78a
label or labeling is not prominently placed thereon
with such conspicuousness (as compared with other
words, statements, designs, or devices, in the labeling) and in such terms as to render it likely to be read
and understood by the ordinary individual under customary conditions of purchase and use.
(d) Repealed. Pub.L. 105-115, Title I, § 126(b), Nov.
21, 1997, 111 Stat. 2327
(e) Designation of drugs or devices by established names
(1)(A) If it is a drug, unless its label bears, to the exclusion of any other nonproprietary name (except the
applicable systematic chemical name or the chemical
formula)—
(i) the established name (as defined in subparagraph (3)) of the drug, if there is such a name;
(ii) the established name and quantity or, if determined to be appropriate by the Secretary, the proportion of each active ingredient, including the
quantity, kind, and proportion of any alcohol, and
also including whether active or not the established name and quantity or if determined to be
appropriate by the Secretary, the proportion of any
bromides, ether, chloroform, acetanilide, acetophenetidin, amidopyrine, antipyrine, atropine, hyoscine, hyoscyamine, arsenic, digitalis, digitalis glucosides, mercury, ouabain, strophanthin, strychnine, thyroid, or any derivative or preparation of
any such substances, contained therein, except
that the requirement for stating the quantity of
the active ingredients, other than the quantity of

79a
those specifically named in this subclause, shall
not apply to nonprescription drugs not intended
for human use; and
(iii) the established name of each inactive ingredient listed in alphabetical order on the outside container of the retail package and, if determined to
be appropriate by the Secretary, on the immediate
container, as prescribed in regulation promulgated by the Secretary, except that nothing in this
subclause shall be deemed to require that any
trade secret be divulged, and except that the requirements of this subclause with respect to alphabetical order shall apply only to nonprescription drugs that are not also cosmetics and that this
subclause shall not apply to nonprescription drugs
not intended for human use.
(B) For any prescription drug the established name of
such drug or ingredient, as the case may be, on such
label (and on any labeling on which a name for such
drug or ingredient is used) shall be printed prominently and in type at least half as large as that used
thereon for any proprietary name or designation for
such drug or ingredient, except that to the extent that
compliance with the requirements of subclause (ii) or
(iii) of clause (A) or this clause is impracticable, exemptions shall be established by regulations promulgated by the Secretary
(2) If it is a device and it has an established name,
unless its label bears, to the exclusion of any other
nonproprietary name, its established name (as defined in subparagraph (4)) prominently printed in
type at least half as large as that used thereon for any

80a
proprietary name or designation for such device, except that to the extent compliance with the requirements of this subparagraph is impracticable, exemptions shall be established by regulations promulgated
by the Secretary.
(3) As used in subparagraph (1), the term “established
name”, with respect to a drug or ingredient thereof,
means (A) the applicable official name designated
pursuant to section 358 of this title, or (B), if there is
no such name and such drug, or such ingredient, is an
article recognized in an official compendium, then the
official title thereof in such compendium, or (C) if neither clause (A) nor clause (B) of this subparagraph applies, then the common or usual name, if any, of such
drug or of such ingredient, except that where clause
(B) of this subparagraph applies to an article recognized in the United States Pharmacopeia and in the
Homœopathic Pharmacopœia under different official
titles, the official title used in the United States Pharmacopeia shall apply unless it is labeled and offered
for sale as a homœopathic drug, in which case the official title used in the Homœopathic Pharmacopœia
shall apply.
(4) As used in subparagraph (2), the term “established
name” with respect to a device means (A) the applicable official name of the device designated pursuant to
section 358 of this title, (B) if there is no such name
and such device is an article recognized in an official
compendium, then the official title thereof in such
compendium, or (C) if neither clause (A) nor clause (B)
of this subparagraph applies, then any common or
usual name of such device.

81a
(f) Directions for use and warnings on label
Unless its labeling bears (1) adequate directions for
use; and (2) such adequate warnings against use in
those pathological conditions or by children where its
use may be dangerous to health, or against unsafe
dosage or methods or duration of administration or
application, in such manner and form, as are necessary for the protection of users, except that where any
requirement of clause (1) of this paragraph, as applied
to any drug or device, is not necessary for the protection of the public health, the Secretary shall promulgate regulations exempting such drug or device from
such requirement. Required labeling for prescription
devices intended for use in health care facilities or by
a health care professional and required labeling for in
vitro diagnostic devices intended for use by health
care professionals or in blood establishments may be
made available solely by electronic means, provided
that the labeling complies with all applicable requirements of law, and that the manufacturer affords such
users the opportunity to request the labeling in paper
form, and after such request, promptly provides the
requested information without additional cost.
(g) Representations as recognized drug; packing and labeling; inconsistent requirements for
designation of drug
If it purports to be a drug the name of which is recognized in an official compendium, unless it is packaged
and labeled as prescribed therein. The method of
packing may be modified with the consent of the Secretary. Whenever a drug is recognized in both the
United States Pharmacopœia and the Homœopathic

82a
Pharmacopœia of the United States, it shall be subject to the requirements of the United States Pharmacopœia with respect to packaging and labeling unless
it is labeled and offered for sale as a homœopathic
drug, in which case it shall be subject to the provisions
of the Homœopathic Pharmacopœia of the United
States, and not those of the United States Pharmacopœia, except that in the event of inconsistency between the requirements of this paragraph and those
of paragraph (e) as to the name by which the drug or
its ingredients shall be designated, the requirements
of paragraph (e) shall prevail.
(h) Deteriorative drugs; packing and labeling
If it has been found by the Secretary to be a drug liable to deterioration, unless it is packaged in such form
and manner, and its label bears a statement of such
precautions, as the Secretary shall by regulations require as necessary for the protection of the public
health. No such regulation shall be established for
any drug recognized in an official compendium until
the Secretary shall have informed the appropriate
body charged with the revision of such compendium
of the need for such packaging or labeling requirements and such body shall have failed within a reasonable time to prescribe such requirements.
(i) Drug; misleading container; imitation; offer
for sale under another name
(1) If it is a drug and its container is so made, formed,
or filled as to be misleading; or (2) if it is an imitation
of another drug; or (3) if it is offered for sale under the
name of another drug.

83a
(j) Health-endangering when used as prescribed
If it is dangerous to health when used in the dosage
or manner, or with the frequency or duration prescribed, recommended, or suggested in the labeling
thereof.
(k) Repealed. Pub.L. 105-115, Title I, § 125(a)(2)(B),
Nov. 21, 1997, 111 Stat. 2325
(l) Repealed. Pub.L. 105-115, Title I, § 125(b)(2)(D),
Nov. 21, 1997, 111 Stat. 2325
(m) Color additives; packing and labeling
If it is a color additive the intended use of which is for
the purpose of coloring only, unless its packaging and
labeling are in conformity with such packaging and
labeling requirements applicable to such color additive, as may be contained in regulations issued under
section 379e of this title.
(n) Prescription drug advertisements: established name; quantitative formula; side effects,
contraindications, and effectiveness; prior approval; false advertising; labeling; construction
of the Convention on Psychotropic Substances
In the case of any prescription drug distributed or offered for sale in any State, unless the manufacturer,
packer, or distributor thereof includes in all advertisements and other descriptive printed matter issued
or caused to be issued by the manufacturer, packer,
or distributor with respect to that drug a true statement of (1) the established name as defined in paragraph (e), printed prominently and in type at least

84a
half as large as that used for any trade or brand name
thereof, (2) the formula showing quantitatively each
ingredient of such drug to the extent required for labels under paragraph (e), and (3) such other information in brief summary relating to side effects, contraindications, and effectiveness as shall be required
in regulations which shall be issued by the Secretary
in accordance with section 371(a) of this title, and in
the case of published direct-toconsumer advertisements the following statement printed in conspicuous
text: “You are encouraged to report negative side effects of prescription drugs to the FDA. Visit
www.fda.gov/medwatch, or call 1-800-FDA-1088.”, except that (A) except in extraordinary circumstances,
no regulation issued under this paragraph shall require prior approval by the Secretary of the content of
any advertisement, and (B) no advertisement of a prescription drug, published after the effective date of
regulations issued under this paragraph applicable to
advertisements of prescription drugs, shall with respect to the matters specified in this paragraph or covered by such regulations, be subject to the provisions
of sections 52 to 57 of Title 15. This paragraph (n)
shall not be applicable to any printed matter which
the Secretary determines to be labeling as defined in
section 321(m) of this title. Nothing in the Convention
on Psychotropic Substances, signed at Vienna, Austria, on February 21, 1971, shall be construed to prevent drug price communications to consumers. In the
case of an advertisement for a drug subject to section
353(b)(1) of this title presented directly to consumers
in television or radio format and stating the name of

85a
the drug and its conditions of use, the major statement relating to side effects and contraindications
shall be presented in a clear, conspicuous, and neutral
manner.
(o) Drugs or devices from nonregistered establishments
If it was manufactured, prepared, propagated, compounded, or processed in an establishment not duly
registered under section 360 of this title, if it is a drug
and was imported or offered for import by a commercial importer of drugs not duly registered under section 381(s) of this title, if it was not included in a list
required by section 360(j) of this title, if a notice or
other information respecting it was not provided as
required by such section or section 360(k) of this title,
or if it does not bear such symbols from the uniform
system for identification of devices prescribed under
section 360(e) of this title as the Secretary by regulation requires.
(p) Packaging or labeling of drugs in violation
of regulations
If it is a drug and its packaging or labeling is in violation of an applicable regulation issued pursuant to
section 1472 or 1473 of Title 15.
(q) Restricted devices using false or misleading
advertising or used in violation of regulations
In the case of any restricted device distributed or offered for sale in any State, if (1) its advertising is false
or misleading in any particular, or (2) it is sold, distributed, or used in violation of regulations prescribed
under section 360j(e) of this title.

86a
(r) Restricted devices not carrying requisite accompanying statements in advertisements and
other descriptive printed matter
In the case of any restricted device distributed or offered for sale in any State, unless the manufacturer,
packer, or distributor thereof includes in all advertisements and other descriptive printed matter issued
or caused to be issued by the manufacturer, packer,
or distributor with respect to that device (1) a true
statement of the device's established name as defined
in subsection (e), printed prominently and in type at
least half as large as that used for any trade or brand
name thereof, and (2) a brief statement of the intended uses of the device and relevant warnings, precautions, side effects, and contraindications and, in
the case of specific devices made subject to a finding
by the Secretary after notice and opportunity for comment that such action is necessary to protect the public health, a full description of the components of such
device or the formula showing quantitatively each ingredient of such device to the extent required in regulations which shall be issued by the Secretary after
an opportunity for a hearing. Except in extraordinary
circumstances, no regulation issued under this paragraph shall require prior approval by the Secretary of
the content of any advertisement and no advertisement of a restricted device, published after the effective date of this paragraph shall, with respect to the
matters specified in this paragraph or covered by regulations issued hereunder, be subject to the provisions of sections 52 through 55 of Title 15. This paragraph shall not be applicable to any printed matter

87a
which the Secretary determines to be labeling as defined in section 321(m) of this title.
(s) Devices subject to performance standards
not bearing requisite labeling
If it is a device subject to a performance standard established under section 360d of this title, unless it
bears such labeling as may be prescribed in such performance standard.
(t) Devices for which there has been a failure or
refusal to give required notification or to furnish required material or information
If it is a device and there was a failure or refusal (1)
to comply with any requirement prescribed under section 360h of this title respecting the device, (2) to furnish any material or information required by or under
section 360i of this title respecting the device, or (3) to
comply with a requirement under section 360l of this
title.
(u) Identification of manufacturer
(1) Subject to paragraph (2), if it is a reprocessed single-use device, unless it, or an attachment thereto,
prominently and conspicuously bears the name of the
manufacturer of the reprocessed device, a generally
recognized abbreviation of such name, or a unique
and generally recognized symbol identifying such
manufacturer.
(2) If the original device or an attachment thereto
does not prominently and conspicuously bear the
name of the manufacturer of the original device, a

88a
generally recognized abbreviation of such name, or a
unique and generally recognized symbol identifying
such manufacturer, a reprocessed device may satisfy
the requirements of paragraph (1) through the use of
a detachable label on the packaging that identifies the
manufacturer and is intended to be affixed to the
medical record of a patient.
(v) Reprocessed single-use devices
If it is a reprocessed single-use device, unless all labeling of the device prominently and conspicuously
bears the statement “Reprocessed device for single
use. Reprocessed by ___.” The name of the manufacturer of the reprocessed device shall be placed in the
space identifying the person responsible for reprocessing.
(w) New animal drugs
If it is a new animal drug—
(1) that is conditionally approved under section
360ccc of this title and its labeling does not conform with the approved application or section
360ccc(f) of this title, or that is not conditionally
approved under section 360ccc of this title and its
label bears the statement set forth in section
360ccc(f)(1)(A) of this title;
(2) that is indexed under section 360ccc-1 of this
title and its labeling does not conform with the index listing under section 360ccc-1(e) of this title or
360ccc-1(h) of this title, or that has not been indexed under section 360ccc-1 of this title and its
label bears the statement set forth in section
360ccc-1(h) of this title; or

89a
(3) for which an application has been approved under section 360b of this title and the labeling of
such drug does not include the application number
in the format: “Approved by FDA under (A)NADA
# xxx-xxx”, except that this subparagraph shall
not apply to representative labeling required under section 514.1(b)(3)(v)(b) of title 21, Code of
Federal Regulations (or any successor regulation)
for animal feed bearing or containing a new animal drug.
(x) Nonprescription drugs
If it is a nonprescription drug (as defined in section
379aa of this title) that is marketed in the United
States, unless the label of such drug includes a domestic address or domestic phone number through which
the responsible person (as described in section 379aa
of this title) may receive a report of a serious adverse
event (as defined in section 379aa of this title) with
such drug.
(y) Drugs subject to approved risk evaluation
and mitigation strategy
If it is a drug subject to an approved risk evaluation
and mitigation strategy pursuant to section 355(p) of
this title and the responsible person (as such term is
used in section 355-1 of this title) fails to comply with
a requirement of such strategy provided for under
subsection (d), (e), or (f) of section 355-1 of this title.
(z) Postmarket studies and clinical trials; new
safety information in labeling

90a
If it is a drug, and the responsible person (as such
term is used in section 355(o) of this title) is in violation of a requirement established under paragraph (3)
(relating to postmarket studies and clinical trials) or
paragraph (4) (relating to labeling) of section 355(o) of
this title with respect to such drug.
(aa) Unpaid fees; failure to submit identifying
information
If it is a drug, or an active pharmaceutical ingredient,
and it was manufactured, prepared, propagated, compounded, or processed in a facility for which fees have
not been paid as required by section 379j-42(a)(4) of
this title or for which identifying information required
by section 379j-42(f) of this title has not been submitted, or it contains an active pharmaceutical ingredient that was manufactured, prepared, propagated,
compounded, or processed in such a facility.
(bb) False or misleading advertisement or promotion of compounded drug
If the advertising or promotion of a compounded drug
is false or misleading in any particular.
(cc) Failure to bear product identifier
If it is a drug and it fails to bear the product identifier
as required by section 360eee-1 of this title.
(dd) Improper labeling of antimicrobial drugs
If it is an antimicrobial drug, as defined in section
360a-2(f) of this title, and its labeling fails to conform
with the requirements under section 360a-2(d) of this
title.
(ee) Nonprescription drug subject to regulation

91a
If it is a nonprescription drug that is subject to section
355h of this title, is not the subject of an application
approved under section 355 of this title, and does not
comply with the requirements under section 355h of
this title.
(ff) Drugs manufactured, prepared, propagated,
compounded, or processed in facilities for
which fees have not been paid
If it is a drug and it was manufactured, prepared,
propagated, compounded, or processed in a facility for
which fees have not been paid as required by section
379j-72 of this title.

